<html>
<title> - THE DEPARTMENT OF EDUCATION INSPECTOR GENERAL'S REVIEW OF STANDARDS FOR PROGRAM LENGTH IN HIGHER EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      THE DEPARTMENT OF EDUCATION
                INSPECTOR GENERAL'S REVIEW OF STANDARDS
                 FOR PROGRAM LENGTH IN HIGHER EDUCATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 17, 2010

                               __________

                           Serial No. 111-67

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
56-835                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4423342b04273137302c2128346a272b296a">[email&#160;protected]</a>  

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Joe Wilson, South Carolina
Rush D. Holt, New Jersey             Cathy McMorris Rodgers, Washington
Susan A. Davis, California           Tom Price, Georgia
Raul M. Grijalva, Arizona            Rob Bishop, Utah
Timothy H. Bishop, New York          Brett Guthrie, Kentucky
Joe Sestak, Pennsylvania             Bill Cassidy, Louisiana
David Loebsack, Iowa                 Tom McClintock, California
Mazie Hirono, Hawaii                 Duncan Hunter, California
Jason Altmire, Pennsylvania          David P. Roe, Tennessee
Phil Hare, Illinois                  Glenn Thompson, Pennsylvania
Yvette D. Clarke, New York           [Vacant]
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 17, 2010....................................     1

Statement of Members:
    Guthrie, Hon. Brett, a Representative in Congress from the 
      State of Kentucky..........................................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Manning, Sylvia, president, the Higher Learning Commission of 
      the North Central Association..............................    12
        Prepared statement of....................................    14
    McComis, Dr. Michale S., executive director, Accrediting 
      Commission of Career Schools and Colleges..................    18
        Prepared statement of....................................    20
    Tighe, Kathleen S., Inspector General, U.S. Department of 
      Education..................................................     7
        Prepared statement of....................................     8


                      THE DEPARTMENT OF EDUCATION
                     INSPECTOR GENERAL'S REVIEW OF
                      STANDARDS FOR PROGRAM LENGTH
                          IN HIGHER EDUCATION

                              ----------                              


                        Thursday, June 17, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:07 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Andrews, Woolsey, 
Hinojosa, McCarthy, Tierney, Kucinich, Holt, Bishop of New 
York, Hirono, Altmire, Hare, Shea-Porter, Fudge, Polis, Titus, 
Petri, Guthrie, and Roe.
    Staff present: Jeff Appel, Senior Education Policy Advisor/
Investigator; Jody Calemine, General Counsel; Denise Forte, 
Director of Education Policy; Jose Garza, Deputy General 
Counsel; David Hartzler, Systems Administrator; Ryan Holden, 
Senior Investigator; Sadie Marshall, Chief Clerk; Ricardo 
Martinez, Policy Advisor, Subcommittee on Higher Education, 
Lifelong Learning and Competitiveness; Bryce McKibbon, Staff 
Assistant, Education; Alex Nock, Deputy Staff Director; Lillian 
Pace, Policy Advisor, Subcommittee on Early Childhood, 
Elementary and Secondary Education; Julie Peller, Senior 
Education Policy Advisor; Alexandria Ruiz, Administrative 
Assistant to Director of Education Policy; Melissa Salmanowitz, 
Press Secretary; Ajita Talwalker, Education Policy Advisor; 
Mark Zuckerman, Staff Director; Stephanie Arras, Minority 
Legislative Assistant; Kirk Boyle, Minority General Counsel; 
Amy Raaf Jones, Minority Higher Education Counsel and Senior 
Advisor; Alexa Marrero, Minority Communications Director; Brian 
Newell, Minority Press Secretary; Susan Ross, Minority Director 
of Education and Human Services Policy; and Linda Stevens, 
Minority Chief Clerk/Assistant to the General Counsel.
    Chairman Miller [presiding]. The committee will come to 
order. My apologies to the members and the witnesses; just some 
last minute details that we had to take care of in preparation. 
So then a quorum being present, the committee will come to 
order, I am reminded by my staff. So a quorum is present, we 
are in order. Here we go.
    The Education and Labor Committee meets this morning to 
examine reports from the Department of Education inspector 
general looking at higher education accrediting agencies. The 
inspector general's review focused on institution policies on 
credit hours and program length.
    As the cost of higher education and, subsequently, the 
federal investment in student aid rise and more students go 
into debt to finance their education it is critical that we ask 
what students and taxpayers, as federal investors, are paying 
for. This has been a priority of this committee for many years, 
certainly intensely, I think, over the last 6 or 8 years as we 
have seen dramatic increases in the cost of education, dramatic 
increases in the rise of indebtedness of students who 
participate in higher education.
    And Mr. McKeon, on the Republican side of the aisle, has 
been a hawk on this issue. Mr. Kline has taken up that call 
also, Mr. Tierney and Mr. Hinojosa.
    With the last reauthorization of the Higher Education Act 
we tried to deal with issues like maintenance of effort to make 
sure that we weren't putting federal money in at the top and 
people were taking it out the bottom, although I think the 
states are probably still doing that in a number of instances.
    It is not bound by whether an institution is for-profit or 
nonprofit, private or public; those haven't been the issues. It 
has been a concern across the board and it has been echoed 
across the country as commentators and others have worried 
about the increased cost and the indebtedness of our students.
    The I.G.'s report found that some accrediting agencies do 
not have any established definitions of a credit hour, which 
could result in inflated credit hours and misappropriation of 
student aid. These are my conclusions, so I don't ask you to--
but I think the accrediting agency is sort of about the way it 
should be, and we discover these problems and we fix them, and 
we go back and forth on that.
    I hope to be able to use this report and the responses back 
and forth because I think they are representative of the 
concerns and I think they are representative of what has been 
the historical defense of the system that has worked, in many 
instances, reasonably well, it appears.
    But I must say that I am constantly inundated now from 
members of Congress on both houses, on both sides of the aisle, 
with the substantial increase in student aid that has been 
appropriated and authorized over the last several years--about 
how this aid is being used. I just want to impress upon people 
that this is a concern that goes across the Congress at this 
point.
    And again, I think there is the tendency that people say, 
``Well, you don't like for-profits,'' or, ``You like the old, 
traditional way; you don't understand the future; you don't 
understand inputs versus outcomes, seat time versus this.'' I 
think this committee does.
    But I think at the end of the day what we know is that the 
system has to resolve itself in how we allocate federal 
taxpayer dollars. And when students and families are borrowing 
money, the system has to resolve itself in favor of 
accountability and integrity, and that is our concern, and that 
is why this is really an oversight hearing.
    This isn't about a ``gotcha.'' This isn't about who is 
right and who is wrong. I think that this particular episode--
when I read the report essentially by chance, it said to me, 
``Here is a chance to look at this system and pull it apart a 
little bit to make sure that we have some understanding of how 
this is done.''
    You know, we have worked to try to bring down the cost of 
education for families by increasing the Pell Grant; we have 
lowered the interest rates on student loans; we made it easier 
for students and families to manage their debt with the income 
based repayment system; we have allowed, under certain 
circumstances, people to discharge their debt after 10 years, 
or after 25 years, so that they can make career choices. But at 
the end of the day we are still adding additional taxpayer 
dollars to the system to provide that opportunity.
    We see a system where certainly at the community college 
level 1.5 million people showed up last year who hadn't been in 
the system before because the economy dictated that they go and 
try to acquire additional skills and talents and update their 
skill sets. We see explosive growth in the for-profit system 
that is meeting the demands and the requirements of many, many 
students as they try to manage their obligations to work and 
their ability to acquire additional skills and knowledge.
    Much of this is new--relatively new, so to speak--and yet 
we continue to have an accreditation system that appears to be 
sort of the same as it was before, saying that we acknowledge 
the newness and we are accommodating that. That is just my 
impression; it is not a conclusion or to say that that is how 
it is so.
    And so I hope that we will be able to pull some of this 
apart, or I hope that we will be able to continue this inquiry, 
because I think we have to provide answers to taxpayers, to 
families, to students, and to the institutions of what are the 
rules. ``How do you do this?'' So this will continue.
    Because of the kind of unusual nature of this--of laying 
out this issue--I have asked and the minority has agreed that I 
would have 15 minutes in my opening questions and that the 
minority would have 15 minutes, and then we will open it up for 
questions by the members.
    And with that, I would like to recognize Congressman 
Guthrie, the senior Republican this morning.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning.
    The Education and Labor Committee meets this morning to examine 
reports from the Department of Education Inspector General looking at 
higher education accrediting agencies.
    The Inspector General's reviews focus on institutions' policies on 
credit hours and program length.
    As the cost of higher education and, subsequently, the Federal 
investment in student aid rise, and more students go into debt to 
finance their educations, it is critical that we ask what students and 
the taxpayers--as Federal investors- are paying for.
    The IG's report found that some accrediting agencies do not have 
any established definitions of a credit hour, which could result in 
inflated credit hours and misappropriated student aid.
    This is alarming and could result in serious implications both for 
students and the future of this country.
    Now more than ever, the strength of our economy rests on our 
ability to produce a highly educated workforce.
    A study this week by the Center on Education and the Workforce at 
Georgetown University projected that in 2018, there will be more than 
three million jobs that require at least an associate's degree and not 
enough people available who are qualified to fill them.
    The system we have today provides aid to students based on the 
number of credit hours they take at an accredited institution. Each 
institution sets those credit hours, and we rely on independent 
accreditors to see to it that institutions do so properly.
    However, the recent IG reports highlight a lack of clear standards 
and policies on this issue, as well as a questionable decision by one 
agency to accredit an institution which peer reviewers observed had 
``egregious'' credit hour policies.
    I am particularly concerned about institutions inflating credit 
hours in order to garner more student aid than is justified.
    This is increased revenue to the institution, but raises the cost 
of higher education for their students, and for the taxpayer.
    Students could be paying more money than they should be without 
getting the product they had hoped for--a coursework or degree that is 
worth something in the workforce.
    This Committee and this Congress have worked diligently and in a 
bipartisan way to help ensure students have access to the resources 
they need to obtain a college degree.
    We've helped bring down the cost of college for families by 
increasing the Pell Grant. We've lowered the interest rates on need 
based student loans and made it easier for the students and the 
families to manage their debt.
    We've created income based repayment programs that ensures a 
borrower will only have to pay back fifteen percent of their 
discretionary income and after 25 years, the debt will be completely 
forgiven.
    This is why we have a responsibility to ensure the students who are 
eligible to receive federal student aid are receiving it and that the 
institutions which serve these students are upholding the integrity of 
the programs.
    Accrediting agencies, in their role of overseeing educational 
quality, are important gatekeepers to student financial aid.
    Just like our federal student aid programs, they have to work in 
the best interest of students.
    The significant investments in Federal student aid this Committee 
has made in recent years makes it all the more critical and timely that 
we be assured accrediting agencies are providing the checks and 
balances needed to keep institutions of higher education accountable.
    I want to thank our witnesses for being here today. I look forward 
to hearing your testimony.
                                 ______
                                 
    Mr. Guthrie. Thank you, Mr. Chairman, and good morning.
    The topic of today's hearing, broadly speaking, is 
accreditation. It is a system of peer review and program 
approval that has a long history in American higher education.
    Accreditation is widely viewed as a seal of approval, a 
sign of program quality. In our higher education system 
accrediting agencies are entrusted with a great deal of 
authority, determining which institutions are eligible to 
participate in the multibillion-dollar federal aid student 
programs.
    It is not Congress or the Department of Education that sets 
the standards or visits the colleges to measure and verify 
their program quality. Instead, independent accrediting 
agencies bear this vital responsibility.
    This is not a fluke. Our nation has always tried to 
maintain an appropriate balance between accountability to its 
students and taxpayers, and the independence of our higher 
education systems.
    One of the benefits of this framework is that it allows 
greater flexibility for maintaining program quality while 
fostering constant innovation. For instance, if accreditation 
were defined by Congress and measured in terms of, for example, 
the number of books in the library, an institution that gives 
its students access to electronic course materials could be 
unfairly excluded from financial aid programs.
    Understanding the basic purpose and process of 
accreditation is necessary as we delve into the specific topic 
of our hearing. Today we will look at a report from the U.S. 
Department of Education's inspector general regarding one 
specific accrediting agency and the process it used to grant 
accreditation to a particular institution of higher education. 
This is one of a series of reviews done by the I.G. examining 
how accrediting bodies are operating within the parameters of 
the law.
    I will leave it to the inspector general to spell out the 
details of her report. Let me simply say I appreciate the work 
that has been done to ensure the intent of Congress that 
accrediting bodies use the necessary tools to ensure the 
program quality is being met.
    As we examine the I.G.'s findings and the broader issues of 
how accrediting bodies measure program quality, let me close by 
urging a note of caution. American students and taxpayers must 
have confidence in our accrediting system. On that we all 
agree.
    We need transparency and accountability to ensure these 
independent bodies are fulfilling their mission. However, we 
must be careful not to stray from the fundamental principle 
that government does not--and indeed, it cannot--dictate what 
constitutes a quality institution of higher education.
    This is a point worth emphasizing, particularly in light of 
the notice of proposed rulemaking released by the U.S. 
Department of Education just last week. Efforts to create a 
federal definition for a credit hour or to establish strict 
federal parameters for program length have the potential to 
place us on a slippery slope--one that will limit creativity 
and innovation in the delivery of postsecondary education.
    Americans take unique pride in our colleges and 
universities--their independence, their quality, and their 
potential for innovation. These virtues are rooted in our 
unique system of peer-reviewed accountability.
    I welcome the efforts to shine light on the accrediting 
system and continue efforts to ensure accreditors are using the 
right tools and measurements to hold institutions to high 
standards. I believe we can maintain accountability without 
relinquishing the flexibility and independence of academia.
    Thank you, and I yield back.
    [The statement of Mr. Guthrie follows:]

Prepared Statement of Hon. Brett Guthrie, a Representative in Congress 
                       From the State of Kentucky

    Thank you Mr. Chairman, and good morning. The topic of today's 
hearing, broadly speaking, is accreditation. It is a system of peer 
review and program approval that has a long history in American higher 
education.
    Accreditation is widely viewed as a seal of approval--a sign of 
program quality. In our higher education system, accrediting agencies 
are entrusted with a great deal of authority, determining which 
institutions are eligible to participate in the multi-billion dollar 
federal student aid programs.
    It is not Congress or the U.S. Department of Education that sets 
the standards or visits the colleges to measure and verify their 
program quality. Instead, independent accrediting agencies bear this 
vital responsibility.
    This is not a fluke. Our nation has always tried to maintain an 
appropriate balance between accountability to students and taxpayers 
and the independence of our higher education system.
    One of the benefits of this framework is that it allows greater 
flexibility for maintaining program quality while fostering constant 
innovation. For instance, if accreditation were defined by Congress and 
measured in terms of--for example--the number of books in a library, an 
institution that gives its students access to electronic course 
materials could be unfairly excluded from the financial aid programs.
    Understanding the basic purpose and process of accreditation is 
necessary as we delve into the specific topic of our hearing. Today, 
we'll look at a report from the U.S. Department of Education's 
Inspector General regarding one specific accrediting agency and the 
process it used to grant accreditation to a particular institution of 
higher education. This is one of a series of reviews done by the IG 
examining how accrediting bodies are operating within the parameters of 
the law.
    I will leave it to the Inspector General to spell out the details 
of her report. Let me simply say I appreciate the work that has been 
done to ensure the intent of Congress--that accrediting bodies use the 
necessary tools to ensure program quality--is being met.
    As we examine the IG's findings and the broader issues of how 
accrediting bodies measure program quality, let me close by urging a 
note of caution.
    American students and taxpayers must have confidence in our 
accreditation system--on that, we all agree. We need transparency and 
accountability to ensure these independent bodies are fulfilling their 
mission. However, we must be careful not to stray from the fundamental 
principle that government does not, indeed it cannot, dictate what 
constitutes a quality institution of higher education.
    This is a point worth emphasizing, particularly in light of the 
Notice of Proposed Rulemaking released by the U.S. Department of 
Education just this week. Efforts to create a federal definition for a 
``credit hour'' or to establish strict federal parameters for program 
length have the potential to place us on a slippery slope--one that 
will limit creativity and innovation in the delivery of postsecondary 
education.
    Americans take pride in our colleges and universities--their 
independence, their quality, and their potential for innovation. These 
virtues are rooted in our unique system of peer-reviewed 
accountability.
    I welcome efforts to shine a light on the accreditation system, and 
continued efforts to ensure accreditors are using the right tools and 
measurements to hold institutions to high standards. I believe we can 
maintain accountability without relinquishing the flexibility and 
independence of academia. Thank you, and I yield back.
                                 ______
                                 
    Chairman Miller. Thank you, gentleman, for your statement.
    And I would like now to welcome our panel to the committee. 
Thank you for giving us your time and your expertise.
    We will begin with Ms. Kathleen Tighe, who serves as 
inspector general for the Department of Education, conducting 
independent, objective audits, investigations, and inspections 
to weed out fraud, waste, and abuse within the department. 
During her distinguished career in public service Ms. Tighe has 
served as deputy inspector general of the U.S. Department of 
Agriculture, counsel to the inspector general of the General 
Services Administration, and as assistant counsel to the Office 
of Inspector General.
    Dr. Sylvia Manning is the president of the Higher Learning 
Commission of the North Central Association, a position she has 
held since 2008. As president she is responsible for overseeing 
the accreditation of degree-granting postsecondary educational 
institutions in the north central region of the United States. 
Previously Ms. Manning served as chancellor of the University 
of Illinois at Chicago, elevating the university to its current 
position as one of the top 50 universities in the country for 
federal research funding.
    Dr. Michale McComis currently serves as the executive 
director of the Accrediting Commission of Career Schools and 
Colleges, overseeing the accreditation process for over 100--
excuse me--for over 810 applicant institutions throughout the 
United States. Specializing in measuring and evaluation of 
student achievement outcomes, Dr. McComis has authored several 
publications and conducted several research projects for the 
commission in addition to participating in the International 
Accreditation Activities in Saudi Arabia, Malaysia, Brazil, 
Canada, and the Caribbean. Before joining ACCSC Mr. McComis 
worked in trade work by serving as an electrician's apprentice 
and HVAC technician throughout his service to the United States 
Marine Corps.
    Welcome to all of you. Our lighting system you may be 
familiar with, but when you begin a green light will go on in 
those small boxes in front of you; that will give you 5 
minutes. And at 4 minutes an orange light will go on and then 
you can start summing up your testimony. Your statement will be 
placed in the record in its entirety so you proceed in the 
manner in which you are most comfortable.
    And I will begin with you.

        STATEMENT OF KATHLEEN TIGHE, INSPECTOR GENERAL,
                  U.S. DEPARTMENT OF EDUCATION

    Ms. Tighe. Chairman Miller, Representative Guthrie, and 
members of the committee, thank you for inviting me here today 
to discuss the Office of Inspector General's reviews of 
accrediting agencies' standards for program length in higher 
education. This is my first opportunity to testify before 
Congress since my March confirmation as inspector general and I 
look forward to working with this committee to help ensure that 
federal education programs and operations meet the needs of 
America's students and families.
    As requested, I will discuss OIG work involving standards 
for program length and the definition of a credit hour--
critically important issues in the federal student loan program 
as the amount of federal aid a student can receive is based on 
the number of credit hours that a student is enrolled in.
    This issue has become even more significant as online 
education has exploded in recent years, making credit hour 
assignment difficult, its comparison to traditional classroom 
delivery difficult and a challenge, and its value increasingly 
important to ensure that students and taxpayers get what they 
are paying for.
    The OIG has conducted extensive work involving accrediting 
agencies for over 2 decades because the role of these--these 
agencies play is vital. Accreditation is one of the primary 
requirements for an institution's participation in the federal 
student aid programs and determines whether academic programs 
merit taxpayer support.
    The department is dependent on accrediting agencies to 
ensure that institutions provide quality content and academic 
rigor at the postsecondary level as it is prohibited from 
determining the quality of education funded by federal 
education dollars. All the department can do with regard to 
evaluating the quality of postsecondary education is recognize 
accrediting agencies as reliable authorities for the quality of 
education funded by federal dollars. Thus, the recognition of 
accrediting agencies by the secretary of education is the 
primary tool available to the department for ensuring that 
students receive value for the taxpayer investment of 
postsecondary education.
    We conducted our most recent work on accrediting agencies 
last year in order to provide the department and Congress with 
information regarding the definition of a credit hour for 
recent negotiated rulemaking sessions. We examined three of the 
seven regional accrediting agencies to determine what guidance 
regarding program length and credit hours they provided to 
those institutions--to institutions and peer reviewers. The 
three accrediting agencies we reviewed represent one-third of 
the institutions participating in federal student aid 
programs--over 2,200 postsecondary institutions receiving more 
than $60 billion in federal student aid funding.
    We found varying levels of guidance related to the issues 
we looked at. For example, the Southern Association of Colleges 
and Schools provides guidance regarding program length and the 
required number of credit hours; however, the other two 
agencies did not set minimum requirements related to program 
length.
    Most significantly, we found that none of the agencies 
established a definition of a credit hour. Their failure to do 
so could result in inflated credit hours, the improper 
designation of full-time student status, the over-awarding of 
federal student aid funds, and excessive borrowing by students, 
especially with distance, accelerated, and other programs not 
delivered through the traditional classroom format.
    At two of the accrediting agencies we were told that 
student learning outcomes were more important than the 
assignment of credit hours. However, these two accrediting 
agencies provided no guidance to institutions or peer reviewers 
on acceptable minimum student learning outcomes at the 
postsecondary level.
    Currently the student aid programs are primarily dependent 
on the credit hour for making funding decisions, as are other 
forms of aid including state student aid programs and certain 
programs administered through the Department of Veterans 
Affairs. To help address this issue the department just 
released a proposed rule that contains the definition of a 
credit hour. Once a final rule is adopted by the department we 
will be closely watching its implementation and evaluating 
whether the definition of a credit hour is effective in 
protecting students.
    This concludes my statement, and I am happy to answer any 
questions.
    [The statement of Ms. Tighe follows:]

      Prepared Statement of Kathleen S. Tighe, Inspector General,
                      U.S. Department of Education

    Chairman Miller, Ranking Member Kline, and members of the 
Committee: Thank you for inviting me here today to discuss the U.S. 
Department of Education (Department) Office of Inspector General's 
(OIG) reviews of accrediting agencies' standards for program length in 
higher education. This is my first opportunity to testify before 
Congress since my March confirmation as the Inspector General. It is an 
honor to lead this organization with its long history of accomplishment 
and to have the opportunity to work with this Committee, which has led 
the way in improving Federal education programs and operations so they 
meet the needs of America's students and families.
    As requested, I will provide information on our work involving 
standards for program length and the definition of a credit hour--
critically important issues in the Federal student aid programs, as the 
amount of Federal student aid a student can receive is based on the 
number of credit hours for which a student is enrolled.
    This issue has become even more significant as on-line education 
has exploded in recent years, making credit hour assignment difficult, 
its comparison to traditional classroom delivery a challenge, and its 
value increasingly important in order to ensure that students and 
taxpayers get what they are paying for.

Background on the OIG and Accrediting Agencies
    For 30 years, the OIG has worked to promote the efficiency, 
effectiveness, and integrity of Federal education programs and 
operations. We conduct independent audits, inspections, investigations, 
and other reviews, and based on our findings, make recommendations to 
the Department to address systemic weaknesses and recommend to both the 
Department and Congress needed changes in Federal laws.
    As members of this Committee know, the Federal student aid programs 
have long been a major focus of our audit, inspection, and 
investigative work, as they have been considered the most susceptible 
to fraud and abuse. The programs are large, complex, and inherently 
risky due to their design, reliance on numerous entities, and the 
nature of the student population. OIG has produced volumes of 
significant work involving the Federal student aid programs, leading to 
statutory changes to the Higher Education Act of 1965, as amended 
(HEA), as well as regulatory and Departmental operational changes. This 
includes extensive work involving accrediting agencies. Accrediting 
agencies are private educational associations that develop evaluation 
criteria and conduct peer reviews of institutions of higher education 
to ensure that the instruction provided by those institutions meets 
acceptable levels of quality. The role they play is vital, as 
accreditation is one of the primary requirements for an institution's 
participation in the Federal student aid programs and determines 
whether academic programs merit taxpayer support.
    Under the HEA, the Department is dependent on the accrediting 
agencies recognized by the Secretary of Education (Secretary) to ensure 
that institutions provide quality, content, and academic rigor at the 
postsecondary level. The Higher Education Opportunity Act of 2008 
included a provision that prohibits the Department from developing 
minimum regulatory criteria for an accrediting agency's standards for 
accreditation. The Department of Education Organization Act of 1980 
prohibits the Department from making determinations on curriculum and 
educational quality. Thus, the Department is prohibited from 
determining the quality of education funded by Federal education 
dollars. All it can do with regard to evaluating the quality of 
postsecondary education is recognize accrediting agencies as reliable 
authorities for the quality of education funded by Federal dollars. In 
1992, Congress established the National Advisory Committee on 
Institutional Quality and Integrity--an independent body charged with 
doing what the Department cannot: evaluating the adequacy of 
accrediting agencies' standards for accreditation and making 
recommendations to the Secretary as to those agencies that should be 
recognized. That input is vital, as the recognition of accrediting 
agencies by the Secretary is the primary tool available to the 
Department for ensuring that students receive value for the taxpayer 
investment in postsecondary education.

OIG Work Involving Accrediting Agencies
    In the late 1980s and early 1990s, OIG identified significant 
problems with some accrediting agencies' oversight of program length at 
some institutions. Our work contributed to significantly strengthening 
the requirements accrediting agencies needed to meet for recognition by 
the Secretary in the Higher Education Act Amendments of 1992. The 
Amendments also mandated that an academic year, for undergraduate 
programs, must be a minimum of 30 weeks of instructional time in which 
a full-time student is expected to complete at least 24 credit hours. 
The Department faced difficulty in applying this requirement to 
programs measuring student progress in credit hours but not using a 
semester, trimester, or quarter system, including non-traditional 
educational delivery methods. Therefore, the Department established the 
regulatory 12-Hour Rule. The 12-Hour Rule served as a surrogate for the 
Carnegie formula, which provided the standard unit of measuring credit 
in higher education, whereby one credit hour generally consisted of one 
hour of classroom work and two hours of outside preparation over the 
course of the academic year. ``One hour of classroom work'' is defined 
as 50 to 60 minutes. Under this method, a full-time student in an 
education program using a semester, trimester, or quarter system would 
have a workload of 36 hours per week through the academic year (12 
hours of classroom work and 24 hours of outside preparation per week). 
At the time, there was an assumption that the traditional semester, 
trimester, and quarter system provided a minimum level of instruction 
and that these programs closely followed the Carnegie formula.
    The 12-Hour Rule provided a tool for the Department to help ensure 
that students received a given quantity of instruction. The Department 
relied on accrediting agencies to ensure that the quantity and quality 
of instruction was at the postsecondary level. The assumption was that 
a full-time student attempting 12 credit hours in a semester would have 
12 hours of scheduled instruction per week. In 2000, we performed an 
audit where we found that an institution's programs offered much less 
classroom education than programs provided by traditional term-based 
institutions and that the institution was in violation of the 12-Hour 
Rule. A series of audits over the next two years identified other 
institutions that were in violation of the 12-Hour Rule.
    In 2002, the Department eliminated the 12-Hour Rule in favor of the 
One-Day Rule. Under this regulation, an institution is required to 
provide one day of regularly scheduled instruction during each week in 
an academic year. However, neither the HEA nor the implementing 
regulations define what constitutes instruction or the minimum amount 
of instruction that needs to be provided during the required one day of 
instruction. At the time of the change, much like today, there were 
many different delivery methods for instruction: the traditional 
residential term-based programs; residential programs not offered on a 
semester, trimester, or quarter system; correspondence courses; 
telecommunications programs; and independent study. There was no 
specificity in what could be included as instruction for determining an 
institution's academic year and credit hours for the awarding of 
Federal student aid funds.
    We informed the Department about our concern with the elimination 
of the 12-Hour Rule, as well as the need to address the definition of 
instruction, the appropriate amount of Federal student aid to be 
awarded in non-traditional programs, and accrediting agency oversight 
of non-traditional programs. As a result of this concern, in 2002-2003, 
we took another look at this issue and examined two regional 
accrediting agencies and two national accrediting agencies, evaluating 
their standards for program length and student achievement. The scope 
of recognition for regional accrediting agencies is limited to specific 
states for each accrediting agency, while the scope of national 
accrediting agencies is not limited to specific states. We found:
            Program Length
    <bullet> Neither regional agency had a definition of a credit hour 
that it required its institutions to follow. The standards these 
regional agencies applied to program length were vague and without 
definition, effectively allowing institutions to establish their own 
standards; and
    <bullet> The two national agencies both had a definition of a 
credit hour in terms of the required hours of instruction needed to 
equate to a credit hour.
            Student Achievement
    <bullet> The regional agencies had not established minimum 
graduation, placement, and licensure rates for any of their 
institutions providing vocational education programs. For all education 
programs, these regional agencies permitted institutions to establish 
their own standards for student achievement, without any specified 
minimum standard; and
    <bullet> The national agencies had established minimum graduation, 
placement, and state licensure rates for the institutions they 
accredited. However, at both agencies we identified problems in the 
methodology by which the rates were calculated that caused the rates to 
be overstated.
    As a result of these findings and in anticipation of the scheduled 
2004 reauthorization of the HEA, we made a recommendation that Congress 
establish a statutory definition of a credit hour stating: ``For 
programs that are not offered in clock-hours, credit hours are the 
basis for determining the amount of aid students are eligible for. 
Absent a definition of a credit hour, there are no measures in the 
[Higher Education Act] or regulations to ensure comparable funding 
across different types of educational programs.'' The recommendation 
was not included in the reauthorization.

Recent OIG Reviews
    As a follow-up to this work and in anticipation of the 2009-2010 
higher education negotiated rulemaking sessions in which the definition 
of a credit hour was to be discussed, OIG once again examined the issue 
in order to provide the Department with facts on program length and the 
definition of a credit hour in negotiated rulemaking and to provide 
information to Congress on the state of the definition of a credit hour 
at regional accrediting agencies. As regional accreditation has long 
been considered the ``gold standard'' in accreditation and information 
on what the regional accrediting agencies were doing with regard to 
credit hours could greatly inform the regulatory process, we determined 
that we would do reviews at the three largest of the seven regional 
accrediting agencies. The three accrediting agencies were: the Southern 
Association of Colleges and Schools Commission on Colleges (SACS); the 
Middle States Association of Colleges and Schools (Middle States); and 
the Higher Learning Commission of the North Central Association of 
Colleges and Schools (HLC). These three accrediting agencies represent 
one-third of the institutions participating in Federal student aid 
programs: 2,222 postsecondary institutions with more than $60 billion 
in Federal student aid funding.
    Our objectives were to determine: (1) what guidance the accrediting 
agencies provide to institutions regarding program length and credit 
hours; (2) what guidance the accrediting agencies provide to peer 
reviewers to assess program length and credit hours when evaluating 
institutions; and (3) what documentation the accrediting agencies 
maintain to demonstrate how they evaluate institutions' program length 
and credit hours. We found that none of the accrediting agencies 
defined a credit hour and none of the accrediting agencies provided 
guidance on the minimum requirements for the assignment of credit 
hours. At two of the accrediting agencies (HLC and Middle States), we 
were told that student learning outcomes were more important than the 
assignment of credit hours; however, these two accrediting agencies 
provided no guidance to institutions or peer reviewers on acceptable 
minimum student learning outcomes at the postsecondary level. The 
following is a summary of our results at each accrediting agency:
            Southern Association of Colleges and Schools Commission on 
                    Colleges
    <bullet> SACS provides guidance to institutions regarding program 
length and the required number of credit hours; however, it does not 
provide guidance on the minimum requirements for the assignment of 
credit hours or the definition of a credit hour;
    <bullet> SACS provides guidance to reviewers regarding the 
assessment of program length, but does not provide reviewers guidance 
regarding the assessment of credit hours; and
    <bullet> SACS maintains documentation to demonstrate that it 
evaluates institutions' program length and credit hours.
            Middle States Association of Colleges and Schools
    <bullet> Middle States does not have minimum requirements specific 
to program length and does not have minimum requirements for the 
assignment of credit hours; and
    <bullet> Middle States senior staff stated that their main focus 
was on student learning outcomes; however, we did not find that Middle 
States provided any guidance to institutions and peer reviewers on 
minimum outcome measures to ensure that courses and programs are 
sufficient in content and rigor.
            Higher Learning Commission of the North Central Association 
                    of Colleges and Schools
    <bullet> HLC's standards for accreditation do not establish the 
definition of a credit hour or set minimum requirements for program 
length and the assignment of credit hours;
    <bullet> HLC does not provide specific guidance to peer reviewers 
on how to evaluate the appropriateness of an institution's processes 
for determining program length and assigning credit hours or on the 
minimum level of acceptability for accreditation when evaluating these 
processes;
    <bullet> HLC maintains self-studies and team reports as 
documentation of its evaluation of institutions' program lengths and 
credit hours, but the amount of information related to program length 
and credit hours that institutions and peer reviewers included in these 
respective documents varied; and
    <bullet> HLC determines whether institutions assess student 
learning outcomes; however, it does not define a minimum threshold for 
when the measures of achievement for student learning outcomes indicate 
poor educational or programmatic quality.
    While conducting our inspection at HLC, we identified a serious 
issue that we brought to the Department's attention through an Alert 
Memorandum, HLC evaluated American InterContinental University (AIU)--a 
for-profit institution owned by Career Education Corporation (CEC)--for 
initial accreditation and identified issues related to the school's 
assignment of credit hours to certain undergraduate and graduate 
programs. HLC found the school to have an ``egregious'' credit policy 
that was not in the best interest of students, but nonetheless 
accredited AIU. HLC's accreditation of AIU calls into question whether 
it is a reliable authority regarding the quality of education or 
training provided by the institution. Since HLC determined that the 
practices at AIU meet its standards for quality, without limitation, we 
believe that the Department should be concerned about the quality of 
education or training at other institutions accredited by HLC. Based on 
this finding, our Alert Memorandum recommended that the Department 
determine whether HLC is in compliance with the regulatory requirements 
for accrediting agencies and, if not, take appropriate action under the 
regulations to limit, suspend, or terminate HLC's recognition by the 
Secretary. The Department initiated a review of HLC and determined that 
the issue identified was not an isolated incident. As a result, the 
Department gave HLC two options for coming into compliance: (1) to 
accept a set of corrective actions determined by the Department; or (2) 
the Department would initiate a limitation, suspension, or termination 
action. In May 2010, HLC accepted the Department's corrective action 
plan.

Current Status
    With the explosion of on-line postsecondary education and 
accelerated programs, the value of a credit hour becomes increasingly 
important to ensure that students and taxpayers get what they are 
paying for. Currently, the Federal student aid programs are primarily 
dependent on the credit hour for making funding decisions, as are other 
forms of aid, including state student aid programs and certain programs 
administered through the U.S. Department of Veterans Affairs. To help 
address this, the Department will soon be issuing a definition of a 
credit hour through a notice of proposed rulemaking that we understand 
will be issued on June 18. Once a final rule is adopted by the 
Department, we will be closely watching its implementation and 
evaluating whether the definition of a credit hour is effective in 
protecting students and taxpayers.
Closing Remarks
    We view the recognition of accrediting agencies by the Secretary as 
the primary tool available to the Department for ensuring that students 
receive value for the taxpayer investment in postsecondary education. 
As the Department is prohibited from developing minimum regulatory 
criteria for an accrediting agency's standards for accreditation or 
making determinations on curriculum and educational quality, it is not 
unreasonable for the Department to expect an accrediting agency to have 
developed its own minimum standards.
    On behalf of the OIG, I want to thank you for the support Congress 
has given to this office over the years. We look forward to working 
with the 111th Congress in furthering our mutual goal of protecting 
students and serving the taxpayers.
    This concludes my written statement. I am happy to answer any of 
your questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Ma'am?

   STATEMENT OF SYLVIA MANNING, PH.D., PRESIDENT, THE HIGHER 
      LEARNING COMMISSION OF THE NORTH CENTRAL ASSOCIATION

    Ms. Manning. There we go. Okay, thank you very much.
    And good morning, Chairman Miller, Representative Guthrie. 
Thank you very much for giving me this opportunity to speak 
with you today on matters of great mutual concern.
    You spoke about accountability and integrity; they are very 
high on our list. And we are also very much concerned about the 
issues of student debt and taxpayer costs.
    I do want to make one brief point with regard to the case 
that was the center point of the inspector general's review of 
our work last summer and then move on to the body of my 
testimony. The point I want to make is simply to remind people 
that this was not a dispute about the value of the courses for 
which we determined that there was too much credit being 
ascribed. We found that fault and we found that based on our 
own standards.
    The disagreement with the Inspector General's Office was a 
disagreement about having made that finding, what should we do 
next? We took an approach that they did not agree with. 
Subsequent events and further examination of the institution 
have indicated that our approached worked. And of course, I 
would be willing to answer more questions about this 
institution in the question period.
    I want to make two simple points about how we conduct 
accreditation. Accreditation, for us, is an action that does 
indeed rely more upon judgment than upon statements of minimum 
thresholds. And secondly, I want to say--and I want to assert--
that this is a rigorous process and that it is rigorous not in 
spite of the fact that it relies upon informed judgment but, 
frankly, because of that fact.
    Why do we use a process that relies so much upon judgment 
and so much less upon minimum thresholds? Because we are 
charged with assuring and advancing quality and we want real 
quality, we don't want minimum quality; because the areas in 
which our evaluators are judging are messy and complex; and 
because we want to be in a posture of continuously requiring 
that our institutions improve.
    We don't believe quality stands still. An institution that 
isn't assessing itself and constantly engaging in improvement 
is losing quality, and that is what we are fighting against.
    How do we achieve the rigor? We achieve the rigor by using 
experienced professionals, people how have been in the field 
for many, many years. We use a wide range of them.
    But we don't simply rely on that expertise. We require our 
evaluators to be trained, and in fact, we do refresher training 
when policy changes. And the training they receive and the work 
they do is within a framework of stated criteria. This varies 
from accrediting agency to accrediting agency.
    In our case we have five criteria and 21 core components, 
and our institutions are required to demonstrate that they meet 
every one of these core components, and our evaluators are 
required to make a finding that they meet them. But the finding 
must be based, as is the demonstration, on evidence.
    This is an evidence-based process. The findings are 
rendered in evidentiary statements, and that is a primary 
consideration.
    Let me turn for a minute more to the question of program 
length and definition. The definition, so to speak, of a credit 
hour is actually deeply understood in the higher education 
community.
    The fact that our standards don't happen to cite precisely 
the so-called Carnegie Hour does not mean that our evaluators 
are not capable of assessing whether a course is worth the 
amount of credit that is being given to the course. And in 
fact, in the particular case that came up in the course of our 
review our assessors exactly looked at the courses and without 
benefit of a written definition and a written standard 
determined that in their view the courses carried too much 
credit.
    But what has happened over the many decades in which the 
credit hour concept is used is that it has come to be 
understood by the working professionals in the area not as a 
function of a clock but as a body or a quantity of knowledge 
and skill that is imparted. And that is why accreditors have 
come to look so much at student outcomes, because the fact of 
the matter is that the credit hour may be good for lots of 
things but it won't tell you what a student learns--it won't 
even tell you whether a student learned anything in the 3 hours 
a week the student sat in the classroom or whether the student 
even did the homework.
    What we are looking for is assessment of outcomes as a very 
important factor in accreditation because we want to be sure 
that the students learned things and that the institutions 
assessed that and paid attention to it.
    If the regulations as proposed are promulgated can we work 
with them? Yes, we can work with them. There may be some 
challenges for the institutions. There will be costs to 
demonstrate compliance, and there may be some deterrence to 
innovation. We can work with it.
    But I can assure you of this much: I don't believe that a 
definition of a credit hour will solve our challenges with 
regard to consistency, and I don't believe that that will lead 
us to the kind of high quality and ever increasing quality this 
nation needs in higher education.
    Thank you. I will be happy to answer questions.
    [The statement of Ms. Manning follows:]

 Prepared Statement of Sylvia Manning, President, the Higher Learning 
              Commission of the North Central Association

    I thank Chairman Miller, Ranking Member Kline, and members of the 
Committee for this invitation to testify on standards for program 
length in higher education.
    I have served as President of the Higher Learning Commission of the 
North Central Association since July 1, 2008. Prior to that I served as 
Chancellor of the University of Illinois at Chicago; I have worked in 
higher education my entire adult life.
    The Higher Learning Commission is the regional accreditor for 19 
states defined as North Central. Specialized and professional 
accrediting agencies accredit specific programs, such as law, 
engineering, or nursing. Regional accreditors accredit entire degree-
granting institutions of higher education; they are membership 
organizations composed of the accredited colleges and universities, 
committed to uphold shared standards and improve practices and 
outcomes. The Higher Learning Commission has just over 1,000 members 
representing the full spectrum of American higher education: public, 
private and for-profit; community colleges, four-year schools, 
professional schools, comprehensive universities, research 
universities, faith-based colleges, tribal colleges; colleges with a 
few hundred students and universities with tens of thousands of 
students.
    This diversity of colleges and the spirit of freedom and enterprise 
that enabled its development are widely believed to constitute one of 
the pillars that have made U.S. higher education still the strongest in 
the world, despite continuing concerns about American global 
competitiveness. In fact, those continuing concerns are part of an 
unceasing drive to innovation that sustains quality.
    It is my understanding that this hearing was prompted by the 
recently reported review by the U.S. Department of Education Inspector 
General of standards for credit hours and program length at three of 
the regional accrediting agencies. The report on the Higher Learning 
Commission was the last to be released and the most critical of the 
three, culminating in a recommendation that the Department undertake a 
review of the Commission's qualification as a recognized accreditor. 
The report and in particular that recommendation focused intensively on 
the case of a single institution and the Commission's decision to grant 
it accreditation.
    In preparing this testimony I have proceeded on the understanding 
that the Committee's interest is not in a single institution or a 
single decision, but in the general issue of credit hours and program 
length and the broader issue of quality. I will refer briefly to the 
specific case at the end of my testimony and am entirely willing to 
discuss it further in oral questioning.
    My testimony is in three parts: (1) The nature of accreditation and 
how it addresses quality; (2) The strengths and limitations of the 
credit hour as a measure to determine academic attainment; and (3) The 
relationship of the credit hour and program length to the assurance of 
quality.

Accreditation and Quality
    Higher education institutions are regulated by state and local 
governments and, to the extent that they accept federal monies, the 
federal government. These regulations touch upon accounting standards, 
probity in the use of public funds, fire and building codes, 
discrimination in employment, athletics opportunities for students, 
research with human or animal subjects, eligibility for Title IV 
federal aid to students, and a variety of other matters.
    Regional accreditation assesses the quality of a college or 
university to ensure that its academic offerings are appropriate and 
rigorous, that its practices have integrity, and that its business 
operations are robust. It looks at the entirety of the institution, 
necessarily taking a broad view. The issues it engages are complex and 
messy and often don't lend themselves to strict rules, to questions 
with yes-or-no answers and scores at the end.
    Accreditation is an act of judgment based upon articulated 
standards or criteria that expressly allow for, even require, judgment. 
Because of that, it preserves the ability to adapt to varying 
circumstances, contexts and environments, to deal with diversity, to 
tolerate--even to encourage--innovation, and to apply constant pressure 
for improvement. Accreditation, in other words, seeks to support the 
innovative and adaptive spirit that has created the richness and range 
of American higher education, the range that in turn enabled the United 
States to democratize higher education long before other political 
democracies attempted to do so.
    Accreditation pursues a dual purpose of quality assurance and 
quality improvement and must accomplish both rigorously. There are 
standards of quality that must be met, and there is the need for 
continuous quality improvement. Improvement is critical because quality 
is not immutable and it does not stand still: an organization is either 
improving its quality or losing it.
    In regulations under Title IV of the Higher Education Act, minimum 
thresholds are often key and must be clear, although even in Title IV 
regulation there is a place for judgment by the staff of the U.S. 
Department of Education where appropriate. Accreditation typically 
shies away from defining minimum thresholds, and the Higher Learning 
Commission in particular has tended to less specific language, with 
phrases such as ``commonly accepted.'' But there is no basis for any 
assumption that the absence of precise or quantified minimum thresholds 
indicates or creates a lack of rigor.
    The Higher Learning Commission, for example, has five Criteria 
under which it arrays 21 Core Components. The Core Components are 
findings that institutions must demonstrate and review teams must make, 
such as ``The organization's learning resources support student 
learning and effective teaching.'' To support this finding, multiple 
forms of evidence will be required and the evidence will be concrete, 
but that is different from a ``minimum threshold'' that might say 
something like ``The organization must provide at least 1 public 
computer station for every 20 students enrolled.'' In addition to the 
Criteria and Core Components, the Commission has 12 specified 
requirements for eligibility and supplements its Criteria with 
Statements such as ``Principles of Good Practice in Adult Degree 
Completion Programs.''
    The importance of evidence is paramount. The Commission's guidance 
documents provide about a half-dozen ``Examples of Evidence'' for each 
of the 21 Core Components and reviewers are required to ground every 
judgment in substantial evidence.
    The Commission relies upon expert or professional judgment to 
determine when standards are simply not met and to apply continuous 
pressure, even upon the best, to improve. Because it has not depended 
upon extensive definitions of minimum thresholds, there is no such 
thing as a ``perfect score'' in an accreditation review. In its 
commitment to quality improvement, the Commission eschews a pure regime 
of minimum thresholds under which an institution seeking only to earn 
its stamp of approval--its ticket, as it were, to Title IV funds--would 
be able to meet those minima and no more.
    Key to accreditation is the use of peer evaluation by professionals 
who are qualified and trained to bring judgment to bear on questions of 
quality. The American judicial system requires juries of peers to 
assure a communal role in the execution of the law. Accreditation seeks 
juries of peers for the purpose of expertise, the expertise that is 
necessary where mission and outcomes are complex, rules cannot be 
framed with mathematical precision, and judgment is essential.
    Countering the risk of excessive subjectivity in judgment, the 
Commission complements its extensive documented discussions with 
required training for its peer reviewers and multiple levels of review 
for critical decisions. Even a relatively small change for an 
institution, such as a venture into establishing an off-campus 
location, is reviewed for approval by more than one person. And, as 
noted above, judgments need to be based on evidence.
    Voluntary accreditation has been in place in the United States for 
over a hundred years and has handled issues related to the evaluation 
of quality for most of that time. Accreditation works well because it 
ensures that institutions not only meet appropriate standards but are 
continually working to exceed those standards, all the while 
recognizing that institutions across the broad spectrum of American 
higher education are not all the same: they have considerable 
differences in how they approach the task of educating students. This 
diversity of institutions that provides opportunities for students 
across the United Status to participate in higher education is a key 
strength of this country. I believe that voluntary accreditation is an 
important factor in keeping this system strong.
    At the same time the Higher Learning Commission believes that its 
processes, like those of the institutions it accredits, can always 
benefit from review and improvement. In fact, we have agreed, in 
follow-up to the Inspector General's report, to address further 
guidance for our review teams on the application of our standards. But 
the principles remain: Minimum thresholds may be useful, but they do 
not guarantee rigor and their absence does not create an absence of 
rigor. Alone they cannot produce high quality, especially the quality 
needed in a rapidly changing, competitive environment.
Credit Hours and Program Length
    The concept of the credit hour was originally developed for K-12 
education. It was adopted by higher education as a way to create a unit 
smaller than the course, to define differences among types of courses. 
Later it came to be used in a variety of other ways, such as to define 
the workload of a faculty member or assess tuition charges. It is now 
deeply embedded in so many facets of higher education practice that 
efforts to dislodge it would be highly disruptive. Only very recently 
in the last century did federal monies become attached to it for the 
distribution of financial assistance to students.
    The credit hour is based upon what is often referred to (usually 
pejoratively) as seat-time, because it starts from the amount of time a 
student spends in a classroom. One semester credit hour consists of 15 
hours in a classroom plus an assumed two hours of homework for every 
hour in the classroom, so that it represents a total of 45 hours. A 
three-credit course at a college on a semester calendar therefore 
normally meets three hours a week for 15 weeks and assumes that 
students are doing 6 hours a week of homework. (Except that an ``hour'' 
in the classroom is usually 50 minutes, an understanding developed to 
accommodate the need for students to have 10 minutes to get from one 
class to another on a college campus.) In theory the definition still 
makes sense. In practice it has always been mushy.
    Anyone who has ever taught or taken a class knows the concept of 
credit hours is mushy. No one can be sure how much time students spend 
on homework, but we do know that in any given class there will be huge 
variation. What's more, the seat-time and homework time, that is the 
credit hour, has nothing to tell us about what a student learned. But 
we do know that some students get A's and some students get D's and 
that the students who got A's learned more than the students who got 
D's--or at any rate knew more by the end of the course--even though 
they all met the same credit-hour requirement. Furthermore, we know but 
don't like to say that a student who earned an A in a course of a given 
description with a given number of credits using the standard credit-
hour definition might take the same course with the same description 
and the same number of credits using the same standard credit-hour 
definition at another college and earn a C--because there are 
differences in what is taught under the description and in the 
performance expected of students.
    So the credit hour by itself is not very good for telling us what a 
student learned. It may be very good for other things, but not for 
that. And that is why Undersecretary for Higher Education Martha Kanter 
has chided accreditors for using input measures like seat-time to 
assess quality. And that is why for the past 20 years higher education 
has been developing ways to measure student learning outcomes. That is 
still a developing art, because it is very difficult to do once you get 
beyond factual knowledge and basic skills. But that is why some 
accrediting agencies, like the Higher Learning Commission, have put 
less emphasis on credit hours as minimum standards and more emphasis on 
assuring that colleges figure out what their students actually learn 
and use those assessments to improve their curriculum and teaching.
    Program length is almost uniformly defined in American higher 
education by a number of credit hours, usually referred to simply as 
credits or units. It is a practical description, and just as the 
concept of credit hours serves in a mushy way to define a quantity of 
learning, or at least a quantity of teaching, program length in terms 
of credit hours defines a degree level. For example, bachelor's degrees 
are generally 120 or 124 credits, though in some fields, especially 
technical and certain practice fields, they creep up to as much as 136; 
associate's degrees are generally 60 credits.
    Credit hours and program lengths as developed in this way have come 
under question not only for their mushiness but also out of the need to 
adapt to a world in which a declining percentage of students are 
traditional students who go away to college or commute to college on a 
full-time basis. Alternative modes of delivery, most notably internet-
based distance delivery that permits a student to participate in 
classroom activities at any time from anywhere, make nonsense of the 
idea of seat-time. Furthermore, research in adult learning and the 
effectiveness of compressed course formats suggests that equivalence 
should not be measured by time.
    Does this mean that higher education should do away with the 
concept of credit hours? No; but we need to be thoughtful in how we 
apply it. Over the decades during which the concept of the credit hour 
has been used, it has come to be understood not as a multiple of hours 
but as a unit for describing a quantity of information or skill 
provided in a specific course. Professors of English share widespread 
understanding of what a three-unit survey course in American literature 
comprises, and professors of Chemistry know what they should cover in a 
three-unit course in introductory Chemistry. Those two things are 
enormously different, and there is no equating the three credits. They 
began as two of five courses that a typical freshman or sophomore would 
be expected to carry in one semester in a traditional, full-time 
college, and that body of effort, for each of those courses, has come 
to be well understood by the professionals who prepare and teach the 
courses.
    That is how those professionals were then able to transfer the 
concept of credits to compressed or asynchronous formats where hours 
can't be counted. What they transferred was not the hours, but the body 
of work, the body of information and skill. It is symptomatic that the 
phrase ``credit hour'' isn't used much: people speak of credits, or 
units, or sometimes hours, though in that case they would likely be 
surprised to be taken literally, as though ``hours'' had something to 
do with a clock. That is why they accept the notion of giving degree 
credit for work experience or military training.
    If program length is measured in credits and credits are mushy, 
then program length is necessarily a mushy standard too. But it has 
come to be workable, just as the concept of credit hours has. That is 
why we do not support the notion of creating three-year bachelor's 
degrees. We support the notion of students' completing what has been 
understood as a four-year program in three years, through advanced 
placement, year-round course-taking and suchlike, but we believe that 
it is useful that a bachelor's degree is generally understood to be 
four years of work and an associate's two, and that calling a three-
year program by either of those names would just create confusion. We 
can have a three-year degree, but let's call it something else.
Credit Hours and Assurance of Quality
    The Inspector General's review of the Higher Learning Commission 
and two other regional accrediting agencies took place in the context 
of an upcoming session of negotiated rule-making called by the 
Department of Education, for which one of the issues on the table was 
the matter of definition of credit hours and program length. The 
argument put forward as to why a definition was necessary was that the 
Department of Education needs to assure that federal funds are going 
towards quality education. That goal is incontrovertible. Ideally, such 
assurance would be based not on the input of credit hours, but on the 
outcome of learning. But in reality, federal funds need to be disbursed 
to students at the beginning of a term, not at the end when it would be 
at least theoretically possible to measure what they had learned. So 
the Department needs an input measure.
    Will defining that input measure, the credit hour, with more 
specificity contribute to the assurance or improvement of quality in 
American higher education? I do not think so. The apparent precision of 
the credit hour as originally defined, based on the fact that it has 
numbers, is an illusion: underneath the numbers lies the mush.
    Will the Department's requirement of that input measure harm 
American higher education? I do not think that either. But resources 
will be spent in demonstrating compliance with the regulation, 
resources spent by colleges and universities, not accreditors, and 
diverted from helping students. And it is possible that the risk of 
citation by an accreditor will deter some institutions from innovation 
in developing programs for adults and other student populations.
    What strikes us as curious is that the call for minimum thresholds 
in matters such as the credit hour and program length runs counter to 
the country's expressed interest in increasing, significantly and 
rapidly, our nation's attainment in higher education. To meet our 
national goals for educational attainment and a workforce for the 21st-
century economy, higher education is asked--by policy makers, 
legislators, foundations, opinion leaders--to break out of old molds, 
seek efficiencies, open doors, reach new populations. Strict 
accreditation requirements based in 19th-century models don't seem 
likely to get us there.
    Can rigor in quality assurance be achieved without defining a 
credit hour, or requiring institutions to define it or accreditors to 
approve the definition? Yes. This point may be best demonstrated by 
referring to the specific case at the center of the Inspector General's 
report on the Higher Learning Commission. The core of that issue was 
the fact that a visiting review team to a campus had identified some 
courses which the team determined were being awarded about double the 
amount of credit they were worth. Because the Commission nonetheless 
granted accreditation to the institution, the Inspector General 
asserted that the Commission either does not have standards or is 
unwilling to enforce its standards.
    But here is the record: (1) the Higher Learning Commission, not the 
Office of the Inspector General, identified the issue of credits during 
its review of the institution; (2) consistent with the recommendation 
of two teams of experienced peer reviewers and based on their academic 
judgment, we determined that the issue--given the general strength of 
the institution under our standards--did not warrant denial of 
accreditation and that a requirement to remedy the problem would be the 
most effective approach; and (3) further review and a site visit to the 
institution have since provided evidence that the approach worked. Our 
standards and procedures identified the problem and corrected it, 
benefitting students and the public in a way that denial of 
accreditation could not (especially since the institution was already 
accredited by another agency and its students were already receiving 
Title IV monies).
    The visiting team of expert reviewers identified the problem, 
without benefit of a precise definition of the credit hour from either 
the institution or the Commission. The members of that team, based on 
years of professional experience, applied professional judgment, 
pronounced the credit ascription out of line and recommended that the 
Commission require this fault to be cured (which the Commission did). 
When the team declared the credit values to be out of line, it did not 
do so based on how many hours the students spent working on the course, 
in a classroom or elsewhere. It did so based on the syllabus, on the 
curriculum, on what and how the students were being taught.

Conclusions
    We offer the following conclusions:
    <bullet> It is appropriate for the Department of Education to 
assure that recognized accrediting agencies pay great attention to 
quality and rigor, including the award of appropriate academic credit.
    <bullet> Accreditation can and does achieve rigor because it relies 
on peer judgment based on clear evidence and demands improvement well 
beyond minimum standards.
    <bullet> The absence of a definition of the credit hour or other 
minimum thresholds has not impeded the Higher Learning Commission's 
discernment of quality or making rigorous accreditation decisions.
    <bullet> A definition of the credit hour, if accompanied by 
sufficient leeway to adapt to contemporary modes of delivery and adult 
learning, is something higher education can work with, but it will not 
assure or improve the quality of higher education in America.
    <bullet> There is room for improvement in accrediting agencies' 
assessment and assurance of quality. The Higher Learning Commission is 
committed to improving its practices and to demonstrating that 
commitment in action, just as it expects its institutions to be.
    Thank you again for the opportunity to testify before the 
Committee. I look forward to responding to any comments or questions 
you may have.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. McComis?

  STATEMENT OF MICHALE S. MCCOMIS, ED.D, EXECUTIVE DIRECTOR, 
     ACCREDITING COMMISSION OF CAREER SCHOOLS AND COLLEGES

    Mr. McComis. Good morning, Chairman Miller, Representative 
Guthrie, Committee. Thank you for the opportunity to testify.
    My name is Michale McComis and I am the executive director 
of the Accrediting Commission of Career Schools and Colleges, 
or ACCSC. We currently accredit 789 career-oriented 
institutions with over 250,000 students throughout the country.
    Today the number of nontraditional, working, adult students 
seeking higher education is steadily on the rise. While a 
traditional liberal arts education continues to be an important 
goal for many students, many other nontraditional students are 
enrolling in career-oriented programs, often part-time or 
online.
    Given the growing demographic of career-focused adult 
learners, the higher education community must continue to adapt 
and innovate in order to accommodate the diversity in its 
student body. Accordingly, there is not, nor should there be, a 
one-size-fits-all means by which to define or analyze program 
length or the credits provided by the institution.
    Having said that, evaluating the continued value provided 
by an institution program remains extremely important. As 
independent entities that establish standards and assess 
institutions on a peer review basis, accrediting agencies are 
the best resource for making determinations related to 
educational design, delivery, and quality.
    The Higher Education Act is written in a manner that relies 
on and respects an accrediting agency's independence and the 
need for flexibility to shape standards and processes in a 
manner that accounts for the types of schools and programs that 
it accredits. It is important that the act's accompanying 
regulations continue to also provide this flexibility in order 
to meet the increasing demand for innovation and diversity in 
higher education.
    As I pointed out during the recent negotiated rulemaking, 
flexibility and regulation regarding the issue of credit hour 
is important because regulatory definitions, particularly 
narrow ones, have the tendency to become entrenched rules that 
stifle innovation.
    The current flexibility in the act has enabled my agency to 
write standards and create processes that make the best sense 
for the types of institutions that the agency accredits.
    The current NPRM's definition of a credit hour would 
relegate our rather rigorous requirements to an ``other'' 
category in the regulations, potentially exacerbating the 
difficulty that students attending our schools already have in 
the area of transfer of credit.
    ACCSC's standards are focused on institutional operations 
and how those operations contribute to student achievement 
outcomes. Because our goal is to assess an entire institution 
we do not apply standards one in isolation from another.
    Our agency has more than 20 standards that address program 
length and objectives directly. Our primary standards in this 
area require institutions to demonstrate that the length of 
each program enables students to achieve the necessary skills, 
knowledge, and competencies.
    If the school's program is not comparable to others our 
standards require an institution to justify that variant 
length. As a standard measure, ACCSC uses a straight clock hour 
to credit hour conversion which does not take into account 
outside preparation. Additional standards on program length 
require the use of independent program advisory committees, 
specific credit hour lengths for degree programs, and specific 
considerations for distance education.
    Our standards are only as good as the process by which we 
measure our institutions against them. To prepare for the 
accreditation process institutions are required to prepare a 
self-evaluation report, or SER.
    ACCSC's staff and on-site evaluators review the 
institutions SER and evaluate program length against our 
standards, such as the clock hour to credit hour conversion 
formula. If there is an issue presented on program length or on 
other outcomes measures, such as graduation or employment rates 
for example, we might require the institution to prepare a 
program viability study, which requires a showing that the 
program is appropriately designed to meet the needs of the 
employment market. If an institution is not able to make this 
showing ACCSC has several institutional and programmatic 
actions available to remediate or correct poor performance or 
to deny or revoke accreditation.
    ACCSC believes there is a direct link between the 
evaluation of program and length and student learning and 
achievement outcomes at an institution. We therefore tightly 
align our student achievement standards to the program 
objective standards. We view our graduation and employment 
rates benchmarks as tools to identify issues such as an 
appropriate program length and to then develop institutional 
improvement mechanisms as a means to enhance institutional and 
student success.
    In conclusion, ACCSC believes that its standards represent 
exemplary practices in the areas of program length, program 
objectives, and student achievement measures for the kinds of 
institutions it accredits. We do not intend to suggest that our 
standards could or should be applied to every institution of 
higher education. Our standards work because they have been 
developed in a peer review environment that is committed to 
institutional and student success.
    Accreditors should continue to be relied upon to establish 
these standards in conjunction with their institutions, keeping 
in mind the best interests of students. Thus, federal law and 
regulation should also continue to rely with confidence on 
professional accreditors and refrain from overly-prescriptive 
requirements that may, albeit unintentionally, stifle 
flexibility and innovation.
    Thank you. I will be happy to answer any questions.
    [The statement of Mr. McComis follows:]

   Prepared Statement of Dr. Michale S. McComis, Executive Director, 
         Accrediting Commission of Career Schools and Colleges

    Thank you for the opportunity to testify. My name is Michale 
McComis and I am the Executive Director of the Accrediting Commission 
of Career Schools and Colleges (ACCSC). I am honored to appear before 
the Committee this morning to discuss the important issue of program 
length in higher education. I hope to provide the Committee information 
about ACCSC's standards and accreditation process in this area, but 
also to provide you our perspective on the role of accreditation in 
higher education more generally.
    ACCSC is a private, non-profit independent accrediting agency 
recognized by the Secretary of Education continually since 1967. It is 
a national agency in scope that currently accredits 789 institutions 
with over 250,000 students throughout the country. These institutions 
are predominantly private sector, career-oriented institutions, 
offering programs at the non-degree, Associates Degree, Bachelors 
Degree, and Masters Degree levels. They prepare students for trade and 
technical careers in many areas including allied health, nursing, 
information technology, automotive technology, commercial art, and 
unique areas such as horology, luthiery, and yacht building and 
restoration.
    ACCSC's primary mission is to serve as a reliable authority on 
educational quality and to promote enhanced opportunities for students. 
To meet its mission, the Commission has a values-based framework for 
accrediting focused on integrity, accountability, continuous 
improvement, open communication and teamwork. My tenure with ACCSC 
began in 1994, becoming its Executive Director in 2008. I have recently 
served on two of the Department of Education's negotiated rulemaking 
panels--the 2009 Accreditation Panel and the 2010 Program Integrity 
Panel--to help establish regulations pursuant to the legislative 
provisions of the Higher Education Act (HEA).

Summary of Testimony
    My testimony is divided into two primary parts. First, I will spend 
a few minutes placing the issue of program length in the broader 
context of our higher education system and regulatory structure. It is 
important to provide a bit of background regarding the need for 
continued reliance on the regulatory ``triad'' that provides the 
student funding and quality-assurance mechanisms for our institutions 
of higher education. I will speak briefly on how the flexibility of 
this regulatory structure has helped to support and encourage 
innovation and diversity in our institutions and their programs and 
teaching methods. In the context of program length specifically, I will 
discuss the relationship between the importance of determining the 
appropriate length of a program, the value of credits provided, and the 
assessment of student achievement.
    The second and most important part of my testimony will provide the 
Committee with a summary of ACCSC's standards on program length and its 
process for reviewing institutions generally, and with regard to 
program length in particular. ACCSC takes pride in the manner by which 
it has adapted its standards and process to account for the types of 
institutions and programs that it accredits. I also would like to 
discuss with the Committee how our standards on program length and 
credit hour directly relate to our assessments of student achievement 
at our institutions.

The Broader Context of Higher Education Policy, Accreditation and the 
        Evaluation of Program Length
    It is important to take a minute to put the narrow issue of 
accreditation standards on program length into the broader context of 
today's higher education system. Today, the number of ``non-
traditional'' students seeking higher education is steadily on the 
rise, the majority of whom are working adults. While a traditional 
liberal arts education at an on-ground institution continues to be an 
important goal for many students graduating from high school, many 
other non-traditional students are enrolling in career-oriented 
programs. Moreover, students are increasingly enrolling on a part-time 
basis or online to accommodate their work schedules or other family 
commitments.
    Given the growing demographic of career-focused, adult learners, 
the higher education community must continue to adapt and innovate in 
order to accommodate the diversity represented in its student body. The 
higher education community itself is also diverse and is defined by a 
broad selection of institutions and programs that range from short-
term, non-degree programs to four-year liberal arts programs, to 
graduate level programs in hundreds of different academic areas, taught 
at institutions both on-ground and on-line. With this rich variety, 
there is not, and should not be, a one-size, fits all means by which to 
define or analyze program length or the credits provided by an 
institution; however, evaluating the continued value provided by an 
institution's programs remains extremely important.
    As higher education takes a more diverse shape, ensuring the 
quality and integrity of these institutions and their programs 
continues to be a paramount concern and historically the primary 
responsibility of accrediting agencies and the schools they accredit. 
Unlike federal and state governments, accrediting agencies are private, 
independent entities, focused on establishing standards and assessing 
their member institutions in relation to those standards on a peer-
review basis and as such are the best resource for making 
determinations related to educational quality.
    Despite the independent, private nature of accreditation, 
accrediting agencies have been linked to the federal government since 
the Congress established the Higher Education Act 45 years ago. In this 
regard, accreditation has played an essential role in institutional and 
programmatic quality assurance and has served as an essential component 
of the regulatory ``triad'' in partnership with federal and state 
governments for the regulatory oversight of higher education 
institutions. Institutions eligible for Title IV funds must be 
accredited by an accrediting agency recognized by the U.S. Secretary of 
Education and the Higher Education Act created a structure for this 
recognition process. Included in the Act and regulations are criteria 
which all accrediting agencies must include in their accreditation 
standards. One of these criteria requires standards that assess an 
institution's measures of program length and the objectives of the 
degrees or credentials offered.
    The Act is written in a manner that respects an accrediting 
agency's independence and the need for flexibility to shape standards 
and processes in a manner that accounts for the types of schools and 
programs that it accredits. Concordantly, it is important that the 
Act's accompanying regulations continue to also provide this 
flexibility. With regard to the issue of program length in particular, 
the above overview of the diversity of the higher education community 
demonstrates the importance of avoiding prescriptive federal 
regulations that might prevent institutions from meeting the increasing 
demand for innovation and diversity in the academic programs offered. 
Moreover, as I pointed out during the Program Integrity Negotiated 
Rulemaking session, the need for flexibility in regulatory language 
regarding the definition of a credit hour is important because 
regulatory definitions, particularly narrow definitions, have the 
tendency to become entrenched rules such that creative yet equally 
effective approaches or even more rigorous approaches are not 
considered or are seen as suspect. As I demonstrate in the next section 
of my testimony, the current flexibility in the Higher Education Act 
has enabled my agency, ACCSC, to write standards and create processes 
that measure program length and credit hours, and that seek to define 
program objectives in a manner that makes the best sense for the types 
of programs and institutions that the agency accredits. The current 
NPRM regarding the definition of a credit hour would relegate our 
rather rigorous requirements to an ``other'' category in the 
regulations potentially exacerbating the difficulty that students 
attending our schools already have in the area of transfer of credit.

ACCSC's Standards and Processes to Evaluate Program Length and Credit 
        Hour
    The ACCSC Standards of Accreditation and accreditation process 
emphasize educational quality by focusing on outcomes. What actually 
happens as a consequence of the teaching-learning processes in a school 
and what is the evidence of these results? Given the stated purposes of 
the school and its documented outcomes, can the school be judged as 
meeting standards of quality compared with similar institutions? Does 
the accreditation process help the school to evaluate and improve its 
student achievement outcomes and hence its quality? Such questions are 
the primary focus of ACCSC as the Commission conducts its work.

Our Standards
    In addition to having standards and processes to examine 
institutional inputs, ACCSC has outcomes-based standards, including 
graduation and employment rates, which the agency uses in its 
assessment process. In short, the Commission is concerned about 
institutional operations and how those contribute to student 
achievement outcomes related to the attainment and application in the 
workplace of skills, knowledge, and competencies.
    Our standards on program length are necessarily linked to our 
standards on student achievement; none of our standards is utilized in 
isolation. ACCSC strives for a ``whole school'' assessment process 
whereby the appropriateness of an institution's operational and 
education inputs can be evaluated in the context of student achievement 
outcomes. Each component of the school (e.g., admissions requirement 
and recruiting, program design and curriculum, student services, the 
quality of the administration and faculty, the inclusion of the 
employment community in curriculum development and assessment, etc.) 
has a role to play and an impact on the overall success of an 
institution and the success of students. In the area of program length 
and objectives, ACCSC has more than 20 standards that address these 
areas directly (see Appendices I and II) and several more that do so 
tangentially.
    Our primary standards in this area require our institutions to 
demonstrate that the length of each of their programs enable students 
to achieve their learning objectives. In the event a school has 
programs that vary from comparable programs, our standards require an 
institution to justify that variant length. As a standard measure for 
program length, ACCSC uses a straight clock hour to credit our 
conversion shown below:
            Semester Credit Hours:
    <bullet> One semester credit hour for at least 15 hours of 
classroom contact; or
    <bullet> One semester credit hour for at least 30 hours of 
supervised laboratory/shop instruction; or
    <bullet> One semester credit hour for at least 30 hours of 
documented independent study activities; or
    <bullet> One semester credit hour for not fewer than 45 hours of 
externship/internship or work-related experience.
            <bullet> Quarter Credit Hours:
    <bullet> One quarter credit hour for at least ten hours of 
classroom contact; or
    <bullet> One quarter credit hour for at least 20 hours of 
supervised laboratory/shop instruction; or
    <bullet> One quarter credit hour for at least 20 hours of 
documented independent study activities; or
    <bullet> One quarter credit hour for not fewer than 30 hours of 
externship/internship or work-related experience.
    Outside preparation is not considered in the conversion of clock 
hours to credit hours. In addition to ACCSC's formula for conversion, 
institutions are required to comply with applicable state and federal 
regulations related to clock-to-credit hour conversions.
    In addition to these standards, additional standards on program 
length require:
    <bullet> Institutions to have an independent program advisory 
committee review and comment on program length;
    <bullet> Minimum and maximum credit hour length for degree 
programs;
    <bullet> Comparability of distance education to residential 
programs; and
    <bullet> A justification and validation for any deviation from 
established clock-to-credit hour conversions in distance education 
programs.

Our Processes
    Our standards are only as good as the process by which we measure 
our institutions against them. We, therefore, have a multistep process 
by which we look at an institution's program length. To prepare for the 
re-accreditation process, institutions are required to prepare a Self-
Evaluation Report (SER). ACCSC's SER instructions requires institutions 
to demonstrate how their programs meet our standards, i.e., we require 
an explanation of how the school has determined that the length of each 
program offered is appropriate to enable students to achieve the 
program objectives. Institutions that do not meet our standards, i.e., 
their program length is not comparable to similar programs, are 
required to justify their program's length.
    Even before our evaluators visit an institution for re-
accreditation, ACCSC staff will review the institution's SER and 
evaluate program lengths against our standards, such as the clock to 
credit hour conversion formula. When our evaluators visit an 
institution, they review the institution's response to the SER and make 
assessments regarding a school's compliance with those standards. Each 
on-site evaluation team is comprised of an education specialist and 
occupation specialist who work together to make assessments regarding 
the appropriateness of a program taking into account the institution's 
assertions, the review by an independent Program Advisory Committee, 
student feedback, and student achievement outcomes. If there is an 
issue presented on program length or on other outcomes measures, such 
as graduation or employment rates, for example, ACCSC might require the 
institution to prepare a Program Validation Study, which would require 
an institution to show that the program is appropriately designed 
(e.g., program length) to meet the needs of the employment market. If 
an institution is not able to make this showing, ACCSC has several 
institutional and programmatic actions available to remediate or 
correct poor performance.
    For institutions seeking initial accreditation, we likewise require 
them to complete a detailed SER, provide a demonstration of compliance 
with our program length standards, and undergo an on-site evaluation. 
If a school is unable to demonstrate programmatic success via student 
achievement outcomes, the Commission will likely defer granting initial 
accrediting until a showing of compliance is made or if the institution 
is unable to demonstrate compliance after given an sufficient 
opportunity to do so, the Commission will deny the school's 
application.
    Between accreditation cycles, ACCSC has a robust program approval 
process. Every program offered by an institution must be approved by 
the Commission before the program can be offered. The program 
applications require an institution to justify the implementation of a 
new program, show that the curriculum and length has been reviewed by 
an external employment community Program Advisory Committee, and show 
that the program meets ACCSC's clock hour to credit hour conversions.
Connection to Student Achievement
    As I have stated, we believe that the evaluation of program length 
is linked to our evaluation of student learning and outcomes at an 
institutions. We therefore tightly align our student achievement 
standards to the program objective standards, including program length, 
at our institutions. We view our graduation rate and employment rate 
benchmarks as tools to identify issues, such as inappropriate program 
length or objectives, and to then develop institutional improvement 
objectives as a means to enhance institutional and student success. I 
include Appendix II for further detail of our student learning and 
achievement outcomes standards.
    In the area of student learning and achievement outcomes, ACCSC 
requires that:
    <bullet> Student learning outcomes for each program are consistent 
with the program objectives and meet any relevant academic, 
occupational, or regulatory requirements;
    <bullet> Student learning outcomes for each program are aligned 
with the program's objectives, the occupational area of study, and with 
the level of education intended (e.g., non-degree, degree, degree 
level);
    <bullet> Student learning outcomes for each program reflect the 
necessary occupational and academic knowledge, skills, and competencies 
as applicable;
    <bullet> The school has a developed and structured process to 
assess and evaluate the defined student learning outcomes;
    <bullet> The school must demonstrate successful student achievement 
by documenting through its assessment practices that students are 
acquiring the knowledge, skills, and competencies intended by the 
program objectives; and
    <bullet> The school must demonstrate successful student achievement 
by maintaining acceptable rates of student graduation and employment in 
the career field for which the school provided education.

Conclusion
    ACCSC believes that its standards represent exemplary practices in 
the areas of program length, program objectives, and student 
achievement measures for the kinds of institutions it accredits. ACCSC 
does not intend to suggest that its standards could or should be 
applied to every institution of higher education, but instead to show 
that rigorous standards can be and have been developed in the areas 
being addressed by this hearing. ACCSC's standards work because they 
have been developed in a peer review environment that is committed to 
institutional and student success. Accreditors can and should continue 
to be relied upon to establish these standards in conjunction with 
their institutions keeping in mind the best interest of students. Thus, 
federal law and regulation should also continue its historical reliance 
on professional accreditors to make the appropriate assessments with 
its institutions and to refrain from overly prescriptive requirements 
that may, albeit unintentionally, stifle flexibility and innovation.

       APPENDIX I.--ACCSC PROGRAM LENGTH AND OBJECTIVES STANDARDS

    The length of each program offered by the school is appropriate to 
enable students to achieve the program objectives and to acquire the 
knowledge, skills, and competencies necessary for initial employment in 
the field for which training is provided. Schools that have or apply 
for programs that appear to be significantly shorter or longer in clock 
or credit hours than comparable programs (i.e., within the same field 
of study) will be required to justify the appropriateness of the 
program length (Section II (A)(2)(a), Substantive Standards, Standards 
of Accreditation).
    For every program, there are detailed and organized instructional 
outlines and course syllabi showing a scope and sequence of subject 
matter sufficient to achieve the program objectives and to acquire the 
necessary knowledge, skills, and competencies. Programs include the 
appropriate number of lecture hours and, as applicable, the appropriate 
number of laboratory/shop and/or externship hours necessary to achieve 
the program objectives (Section II (A)(2)(b), Substantive Standards, 
Standards of Accreditation).
    Each school must have an independent Program Advisory Committee for 
each program area, and the committee reviews and comments at least 
annually on the established curriculum of the program and comments as 
to the appropriateness and adequacy of the program objectives, program 
length, curriculum content, learning resources, and the adequacy of 
facilities and equipment (Section II (A)(5)(e)(i), Substantive 
Standards, Standards of Accreditation).
    Degree programs are measured in semester credit hours or the 
equivalent quarter hours (refer to the Profile of Clock Hour to Credit 
Hour Conversion form), include the appropriate number of lecture hours 
and, as applicable, the appropriate number of laboratory and/or 
externship hours necessary to achieve the program objectives. Degree 
programs must be comprised of courses with content that is appropriate 
to the level and type of degree awarded (Section II (B)(1)(b), 
Substantive Standards, Standards of Accreditation).
    An associate degree program must be a minimum of 60 semester hours 
or 90 quarter hours and a minimum of two academic years. Associate 
degree programs may not exceed by more than 50% the minimum number of 
credit hours required to confer the degree by the appropriate 
regulatory agency in the state(s) in which the school operates. If such 
minimums have not been established, then generally accepted practices 
in higher education shall apply. (Section II (B)(2)(b), Substantive 
Standards, Standards of Accreditation).
    A baccalaureate degree program must be designed and offered in a 
way that appropriately balances distinct types of education and 
training (i.e., technical and occupationally related courses and 
general education courses) and distinct levels of education and 
training (i.e., lower level and upper level courses), and must include 
a comprehensive curriculum with appropriate coursework to achieve the 
program objectives. (Section II (B)(3)(a), Substantive Standards, 
Standards of Accreditation).
    A baccalaureate degree program must be a minimum of 120 semester 
hours or 180 quarter hours and a minimum of four academic years. 
Baccalaureate degree programs may not exceed by more than 50% the 
minimum number of credit hours required to confer the degree by the 
appropriate regulatory agency in the state(s) in which the school 
operates. If such minimums have not been established, then generally 
accepted practices in higher education shall apply (Section II 
(B)(3)(b), Substantive Standards, Standards of Accreditation).
    The length of a master's degree must be appropriate to enable 
students to achieve the required competencies and skills for employment 
or advancement in the field for which training is provided (Section II 
(B)(4)(b)(i), Substantive Standards, Standards of Accreditation).
    A master's degree program must be designed and offered in a way 
that provides for a distinct level of education and fosters independent 
learning and an understanding of research methods appropriate to the 
academic discipline. Graduate level courses must be based on 
appropriate pre-requisites and learning outcomes and expectations must 
be clearly stated to students (Section II (B)(4)(b)(ii), Substantive 
Standards, Standards of Accreditation).
    Master's degree programs must include a minimum of 30 semester 
hours or 45 quarter hours. At least 24 semester hours or 36 quarter 
hours must be in the technical field for which the degree is awarded 
(Section II (B)(4)(b)(iii), Substantive Standards, Standards of 
Accreditation).
    ESL program length must be between 600 and 900 clock hours or the 
equivalent credit hours (Section II (C)(2)(f), Substantive Standards, 
Standards of Accreditation).
    The length of the distance education programs and courses of study 
must meet all necessary requirements outlined in Section II (A)(1), 
Substantive Standards, Standards of Accreditation (Section IX (C)(1), 
Substantive Standards, Standards of Accreditation).
    The school must demonstrate that the content and length of a 
distance education program or course of study are comparable to 
residential programs. The school must justify and provide validation 
for any deviation from established clock-to-credit hour conversions, if 
applicable (Section IX (C)(2), Substantive Standards, Standards of 
Accreditation).

     APPENDIX II.--ACCSC STUDENT LEARNING AND ACHIEVEMENT STANDARDS

    Student learning outcomes for each program are consistent with the 
program objectives defined by the institution's program design and 
development process and meet any relevant academic, occupational, or 
regulatory requirements (Section VII (A)(1)(a), Substantive Standards, 
Standards of Accreditation).
    Student learning outcomes for each program are aligned with the 
program's objectives, the occupational area of study, and with the 
level of education intended (e.g., non-degree, degree, degree level) 
(Section VII (A)(1)(b), Substantive Standards, Standards of 
Accreditation).
    Student learning outcomes for each program reflect the necessary 
occupational and academic knowledge, skills, and competencies as 
applicable (Section VII (A)(1)(c), Substantive Standards, Standards of 
Accreditation).
    The school has a developed and structured process to assess and 
evaluate the defined student learning outcomes of the education and 
training and established competencies (e.g., the application of 
knowledge and skills to the standard of performance articulated in the 
program objectives and as expected in the workplace). This process may 
include a variety and combination of methods such as grading, portfolio 
assessment, and criterion referenced testing based on developed and 
appropriate rubrics (Section VII (A)(2)(a), Substantive Standards, 
Standards of Accreditation).
    The school demonstrates successful student achievement by 
documenting through its assessment practices that students are 
acquiring the knowledge, skills, and competencies intended by the 
program objectives (Section VII (B)(1)(a), Substantive Standards, 
Standards of Accreditation).
    The school demonstrates successful student achievement by 
maintaining acceptable rates of student graduation and employment in 
the career field for which the school provided education. The school 
supports these rates through student transcripts, the school's 
verifiable records of initial employment of its graduates, or other 
verifiable documentation (Section VII (B)(1)(b), Substantive Standards, 
Standards of Accreditation).
ACCSC Student Achievement Benchmarks

                                     ESTABLISHED BENCHMARK GRADUATION RATES
----------------------------------------------------------------------------------------------------------------
                                                 Average Rates of
                                              Graduation Demonstrates     Standard       Established Benchmark
         Program Length in Months               Acceptable Student        Deviation        Graduation Rates*
                                                    Achievement
----------------------------------------------------------------------------------------------------------------
1-3.......................................                        92%            8%                         84%
4-6.......................................                        82%           13%                         69%
7-9.......................................                        69%           14%                         55%
10-12.....................................                        69%           15%                         54%
13-15.....................................                        61%           16%                         45%
16-18.....................................                        59%           17%                         42%
19-24.....................................                        56%           20%                         36%
25-35.....................................                        55%           22%                         33%
36+.......................................                        47%           15%                         32%
----------------------------------------------------------------------------------------------------------------
*If a school reports a lower graduation rate for a program, that program will be subject to additional
  monitoring or reporting as deemed appropriate.


                                      ESTABLISHED BENCHMARK EMPLOYMENT RATE
----------------------------------------------------------------------------------------------------------------
                                            Average Rate of Employment
                                              Demonstrates Acceptable     Standard       Established Benchmark
                                                Student Achievement       Deviation        Employment Rate*
----------------------------------------------------------------------------------------------------------------
All Programs..............................                        82%           12%                         70%
----------------------------------------------------------------------------------------------------------------
*If a school reports a lower employment rate for a program, that program will be subject to additional
  monitoring or reporting as deemed appropriate.

                                 ______
                                 
    Chairman Miller. Thank you very much to all three of you 
for your testimony.
    This is an attempt to set the stage, not so much an attempt 
to inflame the debate. As I understand it, when--Ms. Manning, 
when your--is it Dr. Manning or Ms. Manning?
    Ms. Manning. It is both. I am quite happy with Mrs., which 
is the hardest one to get. [Laughter.]
    Chairman Miller. Now I am stumped. [Laughter.]
    Ms. Manning. I am sorry.
    Chairman Miller. You stump the chump and you win every 
time.
    Okay. Ms. Manning--where am I?--as I understand it, when 
your accrediting team went out and looked at AIU, which is 
American Intercontinental University, when they looked through 
the courses I think both at the master's level and at the 
undergraduate level, if you will, during that process they came 
away with the conclusion that there was inflation of course 
credit unit hours being awarded to some of those courses.
    There was a setup by which you would take nine units over a 
10-week period, and when they looked, apparently, both at the 
content and at what would be required for a full-time working 
student, which many at the university or most at the university 
were, to do that it just didn't add up that you could get all 
of that in in that period of time. Is that a fair summation, 
not on every detail, but----
    Ms. Manning. Yes, I think it was. This was a subset of the 
courses----
    Chairman Miller. And they made a finding, I think, that 
caught the inspector general's--which, in fact, said that they 
felt that this was egregious when they compared it to common 
practices in other institutions from which they may have come 
from or they had experience in the accrediting process. Is that 
fair?
    Ms. Manning. That is exactly the word they used.
    Chairman Miller. Okay. But I mean, is they were comparing 
it to their experience as accreditors and as, in some cases, 
professors, or--I don't know what the team is made up of--their 
experience in higher education, if you will, both in the for-
profit and nonprofit world?
    Ms. Manning. Yes.
    Chairman Miller. Okay.
    And the inspector general, as I understand, your concern 
was after making this finding the accreditation went forward--
you say, I believe--without limitations put on it. But your 
review came after this fact pattern took place because you were 
doing a greater review of various different types of 
accrediting agencies to get a picture?
    Ms. Tighe. Yes, that is correct.
    Chairman Miller. Okay.
    And Ms. Manning, you said during your testimony that this 
problem was raised, you went back, you had a second visit, you 
had meetings, and you think it was addressed. Is that fair to 
say?
    Ms. Manning. Correct.
    Chairman Miller. Okay. So that is sort of the fact pattern.
    So what caught my attention in this is that in this 
discussion of back and forth was the inspector general raising 
the point that Title IV resources are released to students--
loans, Pell Grants--are released to students based upon whether 
they are in full-time status or part-time status, and that is 
measured by credit hours. And that is based upon an old system 
which we call the Carnegie system, which was based upon sort of 
seat-time--you had three hours for three units, which said that 
you were an hour a week in the class or 2 hours a week in 
class, and that corresponded to time outside the class, whether 
it is 2 hours or an hour and a half for each hour that you were 
in the classroom. Is that close?
    Ms. Manning. Yes.
    Chairman Miller. This is the best I have ever done with a 
professor. [Laughter.]
    And is that fair, Ms. Tighe?
    Ms. Tighe. Our concern was that the team made certain 
estimations of the credit policy at AIU, and as you stated 
earlier, that the Higher Learning Commission did not take 
really any action other than proceed to accreditation, 
notwithstanding the estimation of the team that the certain 
classes were over-inflated in credit----
    Chairman Miller. Do you think they had it kind of 
backwards--they should have not provided accreditation, fix the 
problem, and then decided whether or not to accredit?
    Ms. Tighe. Or at least while reviewing or before deciding 
on accreditation, yes, take certain actions to fix those 
qualms.
    Chairman Miller. Okay.
    Let me, if I might--and correct me where I am wrong--but my 
understanding is that regarding this nine-unit course over a 
10-week period of time, both the accreditors and the Inspector 
General's Office looked at this and said, ``This is too many 
units''--I think I am correct saying--``This really corresponds 
to what a three-unit class would be under common 
circumstances.''
    Ms. Tighe. That is what the team concluded.
    Chairman Miller. That is what the team concluded. Did you 
conclude differently, or did you have the ability to conclude, 
Inspector General?
    Ms. Tighe. We did not make--we did not review the courses 
ourselves----
    Chairman Miller. Okay. You just reviewed what they were 
finding----
    Ms. Tighe [continuing]. Reviewed the team report, yes.
    Chairman Miller. So, Ms. Manning?
    Ms. Manning. That was the point I wanted to make. The 
inflation, also, even in the initial team report, was not that 
great. They were looking at a subset of courses, and these are 
quarter units, and they said instead of nine it probably should 
have been somewhere around four-and-a-half, but they were never 
that precise.
    And let me just add one more point, if I may, which is that 
our reports are divided into two sections, and one is assurance 
or compliance, and the other is improvement. That detail is in 
the improvement section, and it is in the improvement section 
in large part because it is really not crystal clear whether a 
course should be nine credits, or eight credits, or six-and-a-
half credits. What they were trying to point to was that there 
is something wrong here and it needs to be looked at and fixed.
    Chairman Miller. Here is my concern: I know it is not 
crystal clear and I respect the tradition of accreditation. And 
so you could say, reasonable people could differ whether this 
is worth three units, four units, or nine units--apparently not 
nine units, but if you get to six; there was a little bit of 
discussion of six to three.
    But as a student, when I sign up for a nine-unit course at 
this university at the master's level, those nine units cost me 
$5,517. Some of that is grants directly from the taxpayer; some 
of that is loans.
    If that course is worth three units it costs me $1,839. All 
of a sudden that unit becomes very important, and I think it 
becomes very important because we are now dealing with 
education for profit, and that extra unit, repeated 500 times 
throughout the year for 500 students taking that class, is 
worth a lot of money, and repeated 1,000 times, and 10,000 
times is worth a lot of money, this was sort of the structure, 
I think, of AIU, you take these nine-unit courses and, as we 
heard on another discussion, if you could get this rotation 10 
times a year it was worth real money.
    I am not saying that is why it is done, but I am saying all 
of a sudden this discussion between you and the I.G. about 
minimum----
    And, Mr. McComis, I set you aside a little bit because you 
have a more specific question about outcomes that you measure 
your schools on. I am not leaving you out of this discussion, 
but----
    Mr. McComis. Thank you. [Laughter.]
    Chairman Miller. So you start to see the problem for a 
member of Congress is, and this is a very touchy situation. I 
understand that. I am not sure George Miller should be deciding 
what is the value here, but that question somebody has to think 
about because this turns out to be billions of dollars if we 
are wrong that are being expended, and this is a program that 
we struggle every year to meet the appropriations for in this 
Congress.
    So that $3,600 difference for that course regime--if your 
accreditors were right and it was worth three as opposed to 
nine--that $3,600 is valuable to the student, to the taxpayer. 
So I don't have the answer on how you deal with this, but I 
think when you understand that for an institution that is in 
some cases publicly-held, some cases closely-held, privately-
held institutions--this question of how you assign credit units 
now becomes part not so much of an academic plan, necessarily, 
but also of a business plan.
    And I would just raise the question--and I just raise it as 
a question; I am sure there will be lots of different answers--
what is the impact of accreditors going up and thinking about 
unit hours and the rest of this--or outcomes, however you want 
to measure it--in light of aggressive business plans, which is 
somewhat different?
    Now, you can argue that the traditional universities are 
sitting on their haunches awarding three hours because they 
have always awarded three hours--it makes no difference to them 
because the taxpayers are footing a big chunk of the bill to 
keep the institutions going--maybe they should be awarding four 
hours, maybe they should be recognizing other components of 
this. You know, we know this catfight back and forth about 
traditionals versus new, and online, and innovative, and the 
rest of it.
    So I am not trying to cast it, but all of a sudden when--
what caught my attention here was that difference in six units 
is huge across the nation. Now again, this practice was found 
by your accreditors not to be conforming either to what they 
experienced in traditional or online or for-profit 
institutions, however they deliver their course material, or 
the hybrid, both seat time and online time.
    So it jumps out, but I think in some cases they are still 
doing this. Now maybe because of the accreditation the nine 
units is all of a sudden worth nine units, but this is, to me, 
a very difficult question that is now--that has been raised by 
this series of events for the Congress of the United States.
    We have about $100 billion out there on the street. The 
schools under your accreditation are about $24 billion a year. 
The schools that you reviewed, Inspector General, were about 
$60 billion a year in combinations of student loans, you know, 
underwritten by the taxpayers, and Pell Grants, and other 
assistance that is available.
    So the consequence, I mean, the outcome of this 
discussion--I don't want to turn this into a debate; I don't 
want to turn this into finger-pointing, but I just want to put 
it in this context, which I think is something we have to 
recognize.
    You know, I try to think that I have sort of embraced the 
policies on education of disruptive innovators. I mean, I think 
that is healthy for the whole system and I think we have such 
great opportunities now with technology to deliver education to 
people where they need it, how they want it, how they can 
understand--you know, all of the things that we know about 
that.
    But this question of how you assign value--and I have a 
couple of minutes left, and I would just like you, if you 
might, both of you--or all three of you, Mr. McComis, if you 
want to--is just how you respond to is this something that is 
now just accounted for and I am out of sequence for, or what 
are we doing here?
    Ms. Tighe. Well, can I just interject a moment, is that I 
think you have certainly hit on the range of our concerns, is 
that ultimately it is about what the student is paying for and 
what, then, the taxpayer is covering for that student. And I 
think our particular concern in this case was that there wasn't 
an effort to immediately mitigate the harm in that students 
were allowed to continue to enroll in these courses, thus 
incurring, you know--the problem continuing.
    Chairman Miller. Sure.
    Ms. Manning?
    Ms. Manning. I don't want to spend too much time dealing 
with the technicalities, but because this is on the record and 
because it refers to a specific institution I do want to 
clarify one point. It also is a point that shows how messy this 
issue of credit values is.
    There is talk about nine units and there is talk about 
three units. The problem is that the nine units is measured in 
what are called quarter units, and the three units in semester 
units. And so if you put them in the same matrix it is six 
versus three or it is nine versus four-and-a-half. And I say 
that, again, only for the benefit of the institution where this 
is being publicly recorded.
    Let me say, though, that this demonstrates how messy and 
complex the issue is. And I want to go back to your point, 
Chairman Miller, also, about the--there is an academic plan and 
an academic purpose, but there is also a business plan, and how 
these perhaps come into conflict with each other, and how an 
academic plan can be manipulated to the benefit of a business 
plan.
    I want to tell you that we share these concerns profoundly, 
that these are concerns that have appeared on the scene of 
higher education in less than 10 years, have been significant 
in perhaps 5 years, and so that one of the challenges for 
accreditation has been to develop the tools for us in order to 
be able to understand this, to manage it, and to apply 
appropriate standards. And I believe that we have worked very 
hard in the last 2 years precisely to develop those tools and 
that we have done a good job. The proof will be in the pudding, 
and the pudding is yet to come.
    We are very concerned about what students are paying for. 
When we took that action we knew that we were looking at a 
subset of course, and we knew something, and I think this is 
really important: There are two ways in which credit value can 
be wrong. One of them is that a student is in class for 45 
hours and does 90 hours of homework and gets three credits and 
it is junk; the other way is that a student is in class and 
gets three credits and should only have gotten two credits. I 
think there is a huge difference there.
    In this case we knew that it wasn't junk. The question was, 
can students learn this within the timeframe?
    What actually was happening was that they were taking these 
nine units in 5 weeks, and what our teams discovered is that 
students couldn't possibly be learning all this in 5 weeks. It 
is acceptable stuff; it meets industry standards. You can't do 
it in 5 weeks.
    The way the institution has remediated the program--the 
problem--is they have split it in two. These are now two four-
and-a-half-credit courses but they are over a 10-week period.
    So it is not that we didn't take any action. We actually 
demanded this immediate remediation. And when we got up there 
to look at it the institution was ahead of us. They had 
actually gone further than we had required. And I think that is 
testimony to the effectiveness of a warning or threat from an 
accrediting agency.
    And at the end of the day if we had not accredited this 
institution they would have walked away. They were already 
accredited. They would have gone on getting Title IV funds. But 
it is not--it is certain that at the rate that we got it the 
problem would not have been identified and corrected.
    And instead of putting a bunch of students in the midst of 
their programs in the situation of being at an unaccredited 
institution and having a degree of significantly less value, 
what we did was that we took the situation that was there and 
we remedied it, and we took it very seriously, and we continue 
to take these instances very seriously.
    Chairman Miller. Thank you.
    Mr. McComis?
    For the members, I am using Mr. Guthrie's time at this 
time.
    You have been very generous with your time.
    Mr. McComis, if you have a comment?
    Mr. McComis. So I can't speak to the specific----
    Chairman Miller. No, no. I understand that.
    Mr. McComis [continuing]. But we, too, find what the--
Chairman Miller, what you are describing is course or program 
stretching, and our board has long felt very strongly about 
that particular issue, and it is one of the leading reasons why 
they have created this multilayered approach to assessment that 
includes with it a very straight clock hour to credit hour 
conversion for the development of that, but also a 
demonstration by institutions through student learning and 
student achievement outcomes, and external review and comment 
by employment community program advisory committees to really 
look at the design of a program and that it is appropriate for 
that student in terms of the length. We have particular cases 
where we have taken action against institutions that we felt 
like the program was too long, or in some instances too short.
    Chairman Miller. Thank you.
    Ms. Tighe, did you have anything else that you wanted to 
add, because I am going to turn it over to Mr. Guthrie? Did you 
have--or are you fine? Okay. Thank you.
    Thank you, Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. And I agree in line 
with a lot of your comments, just what you made previously. We 
have to figure out--there is a lot of money involved and it is 
our responsibility, as I said in my opening statement, for the 
taxpayers and what is happening with their money. It is our 
job, so we appreciate that.
    And I appreciate the I.G.'s report. I appreciate what you 
have presented for us.
    And first, to Mr.--Dr. McComis--you know, in your written 
testimony--because we are trying to figure out how to handle 
this, I guess, and one thing that we are seeing is the 
department is coming out with a proposed rule on defining 
credit hour in the federal regulations. And can you talk a 
little bit more about--I think, you know, your--my 
understanding in your written testimony there could be some 
harms that could come about by a federal definition of credit 
hour. Could you elaborate on that?
    Mr. McComis. So, as I indicated in my oral testimony as 
well, during negotiated rulemaking one of the points that I 
tried to make relative to the definition that was first 
presented by the department was simply that the use of the 
Carnegie Unit as the primary definition would relegate our 
straight clock hour to credit hour conversion formula into the 
other category that they provide--I think the language is 
somewhere along the lines of other comparable methods for 
determining the length of a program or the definition of a 
credit hour.
    The issue with that is once you begin looking at transfer 
of credit issues it is, ``Well, your institutions don't offer 
units that are defined by this Carnegie Unit and so therefore 
they can't be transferrable,'' when I think that actually our 
credits are more rigorous because they don't allow for outside 
preparation. It is, again, largely our institutions are career-
oriented and much of that work has to be done in the classroom, 
and in the lab, and on externship.
    So the narrow definition, I think, could, you know, maybe 
unintentionally, stifle the opportunity for students to be able 
to transfer those credits. That was the point that I was trying 
to make.
    Mr. Guthrie. And one of the concerns would be--is that if 
we are paying just for credit hour--I understand that that 
could be manipulated--but if you are paying for credit hour you 
are not necessarily paying for the outcome, and you measure the 
outcomes. And how, in your accreditation process, when you look 
at outcomes, can you go back and see that maybe credits were 
misallocated or misawarded, so--by checking--not just looking 
at the credit hours, you look at the outcomes, and from the 
outcomes or the quality you say you can go back and say that 
credit has been--credit hours have not been allocated properly, 
which is a way of catching a problem, too.
    Mr. McComis. Sure. So the way that we utilize our student 
achievement outcome benchmarks is to identify potential 
problems, and when a particular program--because we do it by 
program, not by institution--when a particular program begins 
to demonstrate either lower graduation rates or employment 
rates that fall below those benchmarks we begin to do a--
require the institution to start talking to us about the 
viability of their program, or efficacy of their efforts to 
improve retention, or graduation, or employment, and try to 
identify the root cause of those lower outcomes.
    Traditionally what we would see is that if a program, you 
know, was too long in length that graduation rates might 
suffer; if it was too short in length employment rates might 
suffer because the students are not attaining the necessary 
competencies. So we are looking to really identify that optimal 
balance between the program design and content with student 
achievement outcomes.
    Mr. Guthrie. Okay. Thank you.
    And then, Ms. Manning--or Dr. Manning--can you describe 
what processes you have in place to ensure that your peer 
review teams--and how you evaluate institutions to ensure that 
they are assigning proper credit hours? I mean, what process do 
you use to see if your peer review teams have--what processes 
do your peer review teams use to ensure the institution is 
assigning proper credit hours?
    Ms. Manning. In the normal course of a review, not when 
there has been a problem identified like this one that we were 
talking about earlier, this is part of the review that is 
conducted on the adequacy of the student learning. It is also 
true that in areas where we are required by regulation on 
behalf of the federal government to look into specific issues 
we ensure that every team addresses the issues, and with the 
knowledge that the team will address it the institution is 
required to address it.
    The normal procedure is that you have a team on the campus; 
it is made up of a number of people with different disciplinary 
backgrounds. They will sample--from the institution's point of 
view it is an arbitrary or random sample--courses. They will 
look at syllabi, they will talk to faculty, they will talk to 
students, they will look at the program outcomes that have been 
identified.
    We require all our institutions to be engaged in 
assessment. You can't assess unless you have goals and stated 
outcomes. We require those for every program on the 
institution.
    We test with a random sample, and that is random, not 
randomized.
    Mr. Guthrie. Could you check against--if you say this 
course in other institutions is typically a three-hour course, 
this one they are giving a four-hour course? I mean, do you 
compare across institutions or just within the institution 
itself?
    Ms. Manning. No, we tend to look at--well, it is looking at 
the institution itself against a background of the knowledge of 
the evaluator who is looking at it. The distinction between a 
three-unit course and a four-unit course is something that I 
would be very hard put to argue is actually a valid distinction 
that you can really make. There would be, I think, much greater 
variation between many three-unit courses at different 
institutions, or even in different classrooms in the same 
institution.
    Mr. Guthrie. Okay. Because I can see a lot of English 101 
at one school is three hours, at the next school it is three 
hours, at the next school it is three hours, but a lot of the 
issues we are concerned about are nontraditional students and 
probably nontraditional courses, and that, I mean, that is one 
of the questions I guess we have to grapple with as we are 
going.
    But before I run out of time I do have one more for Dr. 
McComis. You said that you look at the outcomes and then you 
make actions based on the outcomes. What actions can you take? 
I mean, what point do you leave--if you find that you have a 
program you say is of low quality or not meeting the quality, 
what actions do you take as an accrediting agency?
    Mr. McComis. So there are several programmatic and 
institutional actions that are available to the commission to 
remediate poor performance in any given program. At the 
programmatic level, an institution might be placed on 
reporting, where they will have to continually go back to the 
commission and talk to them about their improvement efforts, 
what have they identified as being some of the root causes for 
the lower outcomes, whether those are internal or external, 
whether they are market forces or whether they are internal 
program content issues.
    They will need to work to identify those and then to assess 
and remediate. When an institution is placed on some form of 
outcomes reporting there are limitations that are associated 
with that as well.
    From there the actions can certainly escalate to other 
kinds of programmatic actions if improvement is not made to 
require an institution to suspend enrollment while an 
investigation continues, to cease enrollment, or to revoke 
programmatic approval or distance education approval. 
Institutional actions would include show-cause orders or 
probation orders.
    And probation orders are important because of the 
transparency that is associated with them. Our board requires 
that once you place an institution on probation they have an 
obligation to tell current and prospective students about that 
action. It becomes public on our Web site and we also identify 
that for all federal, state, and other accrediting bodies as 
well.
    Mr. Guthrie. What kind of frequency for that final--the one 
you just described, what kind of frequency--you have, what, 
700--over 700 schools you----
    Mr. McComis. We do, yes.
    Mr. Guthrie. Okay, how many would be on this----
    Mr. McComis. On probation at any given time?
    Mr. Guthrie. Just public--I don't want you to say it if it 
is not public.
    Mr. McComis. Maybe 10--five to 10 institutions, for a 
variety of different reasons.
    Mr. Guthrie. Okay.
    Thank you. That is my question----
    Chairman Miller. Would the gentleman yield for 1 second?
    Mr. Guthrie. I will yield.
    Chairman Miller. Ms. Manning, you said--and I think you 
correctly say--it would be very difficult to tell the 
difference between a three-unit course and a four-unit course--
hard for accreditors to do. But this particular institution, 
that is $613--1,000 students. That is a lot of money.
    This is a problem. I am not making this out that we 
disagree on this. This is a problem.
    Before, for all of the reasons we know, when you are trying 
to look at common practices across institutions of higher 
education, and content, and value, and the rest of that, but we 
now are confronted with this issue that each of those 
determinations carries a cost to the taxpayer. And yet, I want 
institutions to be able to set, you know, to set the content 
and the course and the time that makes sense in terms of what 
the student is hoping to get out of that course if they enroll 
in that.
    But what we could dismiss in another setting today we have 
to contemplate how we thing about it before we make that 
determination that it is just a distinction we can't make, 
because, you know, one of the things we have learned about 
fees--people learn from the telecommunications industry, they 
like to assess a little tiny, tiny fee a billion times a day. 
And one unit here and one unit there doesn't sound like much, 
but across this country at these prices, you know--geez, if 
they did it at Harvard it is worth $1,600. Think of that.
    Mr. Andrews?
    Mr. Andrews. Sounds a lot like----
    Chairman Miller. Thank you.
    Mr. Andrews [continuing]. Sounds a lot like 401K fees, Mr. 
Chairman.
    Chairman Miller. It does seem like it.
    Mr. Andrews. I would like to thank the chairman for calling 
this hearing because I think it is part of a broader effort 
this committee is embarking upon to try to find quality 
measurements for higher education in the country. A lot of our 
laws come from an era where there was a consensus about 
quality, correct or incorrect, and there was a debate about 
quantity.
    I think that the dramatic technological and pedagogical 
changes that we have undergone have rendered that consensus 
about quality to be obsolete, and I think that our committee is 
going to be involved and we need the help with each of you, as 
witnesses, in conducting an assessment of what quality really 
means in this new world. And I think this morning's hearing is 
a great step in that direction.
    Ms. Tighe, thank you for the good work that you have done. 
I want to be clear that your report did not draw any 
conclusions or distinctions with respect to differences with 
respect to the ownership of schools involved, right? You didn't 
find any pattern that would discriminate or distinguish 
traditional not-for-profits, from publics, from for-profits. Is 
that right?
    Ms. Tighe. Well, we covered a sample of each kind of school 
when we looked at each accrediting agency.
    Mr. Andrews. But there isn't any pattern that would 
distinguish the results among the three?
    Ms. Tighe. No.
    Mr. Andrews. Okay.
    The second thing I wanted to ask was, in the review of the 
work that Dr. Manning's agency did you highlighted one 
particular instance, which we want to talk about in a minute. 
Were there any other instances of accreditation that you found 
that called for special highlighting? I understand the basic 
conclusion was that there was not a definition of the credit 
hour nor guidance, but were there any other situations of 
specific school review that you felt the need to call attention 
to?
    Ms. Tighe. No. In our review of the three accrediting 
agencies we did not see any other instance like that one.
    Mr. Andrews. And in the case of Dr. Manning's organization 
how many accreditations did you look at that they had 
performed?
    Ms. Tighe. We looked at, for her organization, I think 
roughly eight different institutions.
    Mr. Andrews. Okay. So it is one that we are focusing on 
here out of that eight.
    Now, Dr. Manning, I wanted to get the timeline straight on 
the one that is controversial here. Am I correct that your team 
visited this school in March of 2009?
    Ms. Manning. Yes.
    Mr. Andrews. And your team did find this--they did use the 
word ``egregious''?
    Ms. Manning. They did.
    Mr. Andrews. And the fact pattern that was egregious was 
that in their judgment coursework that should have been 
awarded, say, four-and-a-half credits was awarded nine. Is that 
right?
    Ms. Manning. That is right.
    Mr. Andrews. Okay. Now, when they discovered that what 
remedial action--you testified that now what the institution 
has done is to break that course into two 5-week, four-and-a-
half-unit courses, and in your judgment that satisfies the 
problem. When did the institution do that?
    Ms. Manning. They did that in the course of the fall of 
2009.
    Mr. Andrews. In the fall of 2009. So were there students 
between the March 2009 review and the fall of 2009 that 
continued on in this nine-credit course that should have been 
four-and-a-half?
    Ms. Manning. Yes.
    Mr. Andrews. Okay. And I don't mean this as a rhetorical 
question, but why did your organization choose--as I 
understand, the remedial measure that you chose was to sort of 
point this out to the school and encourage them to do something 
about it. Is that a fair characterization?
    Ms. Manning. I think ``encourage'' is a soft word.
    Mr. Andrews. But you didn't----
    Ms. Manning. We threatened.
    Mr. Andrews. Okay. But you didn't withhold their 
accreditation.
    Ms. Manning. We did not withhold their accreditation.
    Mr. Andrews. Okay. What was the basis of that--if it is not 
proprietary or subject to litigation--what was the basis of 
that remedial judgment? Why didn't you recommend a suspension 
or at least an--here is our concern: The records would then 
show that between the spring of 2009 and sometime in the fall 
of 2009 students were paying more than they should, taxpayers 
were paying more than they should. It was evidently corrected 
by the fall, but why the interim? Why did we permit that 
interim to occur at all?
    Ms. Manning. You know, I think the--part of this is to see 
whether it is a question of were they being overcharged or was 
there a deficit in academic quality in what they were getting. 
I think that is really the difference. We were saying, ``You 
can't have learned this much.'' It would have been lovely to 
correct this instantly, but we do not believe that it could 
have--you can't correct these things overnight; you have 
agreements with students.
    Mr. Andrews. My time is up, so I have this final question: 
Why didn't you decide to make their accreditation conditional 
upon fixing this by some date certain?
    Ms. Manning. Well, in effect we did that. We accredited 
them, and we told them----
    Mr. Andrews. But if they had not made this decision 
voluntarily they would still be accredited, wouldn't they?
    Ms. Manning. No. If they had not made this decision we 
would by now have been moving to withdraw their accreditation. 
We would have----
    Mr. Andrews. Was it a condition of their accreditation?
    Ms. Manning. We have not had a practice of expressing it as 
a condition, but we do have a practice of saying, ``This must 
be remediated and you must come back by this date and show us 
that you have remediated it.''
    Mr. Andrews. So you are saying it is the functional 
equivalent thereof?
    Ms. Manning. Yes.
    Mr. Andrews. Okay.
    Thank you, Mr. Chairman.
    Ms. Tighe. Well, I was just going to point out that at the 
time we did our field work, which was late in the summer of 
2009 the remedial measures being instigated by Higher Learning 
Commission were a requirement of a self-study by AIU and then a 
focused visit that was scheduled for, actually, this coming 
school year. Now, I obviously can't speak to what measures were 
taken since that time.
    Mr. Andrews. I understand.
    Chairman Miller. Mr. Hinojosa?
    Mr. Hinojosa. Chairman Miller, thank you for having this 
critically important hearing on the inspector general's review 
of standards and programs linked in higher education. As 
subcommittee chairman on higher education I am committed to 
ensuring that our institutions of higher learning and career 
and technical colleges provide high-quality educational and 
training programs to all students. The inspector general's 
findings are of great concern to me.
    At this time I have a question for Inspector General 
Kathleen Tighe: In your testimony you indicate that the 
explosion of online education in recent years has made it even 
more difficult to assign credit hours and assess student 
achievement. I strongly support the Department of Education's 
proposed regulations pertaining the definition of a credit 
hour.
    Tell me, what types of minimum standards should accrediting 
agencies develop to ensure that students and taxpayers receive 
what they are paying for?
    Ms. Tighe. Well, I think the most critical standard is the 
one we have been sort of talking about today, which is the 
definition of a credit hour. I think that it is not only the 
vehicle that--you know, the unit that most, you know, 
institutions use to define--you know, to have students pay for 
classes, it is how federal student aid gets dispensed, which is 
ultimately our concern.
    And I think it is that definition, which I think in truth 
we are not looking at it from the perspective of it has to be 
the Carnegie Unit; I think it can be a flexible definition, and 
I think that it can take into account student outcomes and the 
other things. But I think it ultimately is up to accrediting 
agencies to develop a definition.
    Mr. Hinojosa. Since we see some colleges with quarterly 
semesters and then others that are the regular semester--and I 
am not sure about the for-profit colleges--couldn't we just 
make everybody be standard on the same length of time?
    Ms. Tighe. Well, I think you could do that, but I think it 
is probably not necessary to do that. I think that you can have 
a credit hour mean something and have different program lengths 
even with that.
    Mr. Hinojosa. Okay.
    My next question is to Dr. Manning with the Higher Learning 
Commission. In your testimony you have underscored the need for 
accrediting agencies to focus on student learning outcomes. Do 
you agree with the inspector general that it is necessary for 
accrediting agencies to have a precise definition of a credit 
hour and establish minimum requirements for program length in 
addition to considering learning outcomes?
    Ms. Manning. I think that we can work with a definition of 
credit hour as has been proposed. Where I think we are 
skeptical is whether that definition will, in fact, ensure the 
quality of what a student learns in those hours. And the 
understanding of what a student should learn not in so many 
credit hours but in introductory chemistry is something that is 
well held by the professors of chemistry.
    And our argument has simply been that we have not had lax 
standards because we haven't told them what that is. We have 
worked on a system where we have brought in people who 
understand that and who hold institutions to those standards.
    And let me just say also, with reference, as well, to 
Chairman Miller's earlier point: Because this is always a 
slightly fuzzy area that is another reason why it is so 
important for us to say, ``Minimum standards don't do it.'' You 
have got to significantly exceed. We want high quality.
    Mr. Hinojosa. My last question is to Dr. McComis: What are 
accrediting agencies doing now to ensure that there are minimum 
graduation rates, placement rates, and licensure rates for the 
vocational education programs? Address my question for the 
public colleges versus the for-profit college or university.
    Mr. McComis. So, I can speak most specifically about our 
agency. We have, since 1998, had quantitative standards for 
graduation rates and employment rates for each program offered 
within an institution.
    Those rates are calculated--the required benchmarks, 
thresholds that we use--are calculated through collecting 
annual data from each program offered by our institutions and 
aggregating those and coming up with an average and then a 
standard deviation. The standard deviation represents the 
benchmark because it represents those--the lowest-performing 
group within the set of data that we are using.
    As I said earlier, we then require each institution to 
demonstrate that their programs exceed those benchmarks, and if 
they don't they move into some kind of monitoring mechanism, 
anywhere from heightened monitoring that, over time, could lead 
ultimately to some other kind of institutional action, all the 
way up to revocation of accreditation.
    Mr. Hinojosa. My time has run out. I yield back.
    Chairman Miller. Mr. Petri?
    Mr. Petri. Mr. Chairman, thank you very much. And thank you 
for scheduling and holding this important hearing.
    And, Ms. Tighe, welcome to your new assignment. You have--
--
    Ms. Tighe. Thank you very much.
    Mr. Petri [continuing]. You have a very big and important 
job, and I--probably it is basically almost impossible.
    I have a lot of concerns about the whole accrediting 
process. I thought it worked very well when it was voluntary 
and groups of--on one basis or another--of schools, 
institutions, would get together for mutual evaluation, and 
self-help, and setting standards, and helping the public then 
choose based on that approach.
    We built on that when we got into the student loan 
business, and G.I Bill of Rights, and all of this after World 
War II thinking that that was a pretty good proxy for quality 
in one thing and another, and it didn't work very well so we 
put in a whole new process to look after student loan repayment 
rates. But anything that we do seems to create a system where 
people start gaming it.
    And as long as we focus on inputs--trying to define an hour 
or something like what are a credit hour--we are avoiding the 
fact that we could just give a test to people before they went 
and after they went and see if they made reasonable progress 
and fine the school if they didn't, or some simple sort of a 
thing where you actually--because different classes are going 
to have different requirements, and as you said, distance 
learning, and the 101 different ways around this. It is 
basically never going to happen.
    And even in accrediting, when I meet with the accreditors 
with the schools in my district what they say is, ``We are so 
different. We are accreditors. We define what our objective is 
and they try to measure us on basically how we achieve the 
objectives we have defined.'' And so that is kind of a circular 
thing, and what it has to do with quality or anything else is 
beyond me. So I don't know if you have any observation on that.
    And the other area we are wrestling with as a committee is 
the 90-10 rule, and what if people are gaming it. And it turns 
out, evidently that applies over a very short period of the 
repayment of loans, meaning we should have a longer period and 
we should look at if these proprietary or other schools are 
giving other aid to students and then they are using it to come 
within the 90-10 rule--is that really what we are talking 
about? It is a huge problem, and we are going to have to get a 
handle on it or we are going to have another big mess on our 
hands.
    Ms. Tighe. We would agree. I mean, we are obviously always 
looking to--I mean, that is part of our job is looking to 
people who game the system.
    I think as far as your first point, I think, you know--yes, 
I think one theoretically could just give a test at the 
beginning and then measure, you know, academic engagement and 
student, you know, learning on that basis. The problem is, I 
think that is a difficult way to dispense, you know, federal 
student aid.
    And for better or for worse the way we do that is by credit 
hour, and I think it ought to have some meaning to the student 
and to the taxpayer that is somewhat--that both allows for 
innovation in learning, but yet gives some minimum requirement. 
And, you know, that is sort of, you know, why we went in and 
did our review.
    The 90-10 rule obviously concerns us. We have had a number 
of cases--investigations--based on schools who are gaming that 
issue. It is something we are also concerned about.
    Mr. Petri. Thank you.
    Chairman Miller. Mr. Bishop?
    Mr. Bishop of New York. Thank you, Mr. Chairman, and thank 
you for holding this hearing.
    And thanks very much to the panel.
    I used to administer a college in New York State, and so my 
experience--New York State is very prescriptive; if you want to 
have an academic program in New York State you have to register 
with the State Education Department even if you are a private 
college, and the State Education Department uses the Carnegie 
Unit as a measure of an academic credit. I have to say, we 
found that to be very helpful to have some minimum threshold 
level that defined a credit, that defined a course, that 
defined the length of the semester, and so on.
    Dr. Manning, you had said in your comments this morning 
that the definition of the credit hour is deeply understood. 
You also said that this issue is messy and complex.
    So I have two sort of related questions: one, if it is 
deeply understood what is the harm in citing some minimum level 
that reflects that deep understanding? And if, in fact, this is 
messy and complex wouldn't we deal with some of the messiness 
and complexity if we had some clear minimum definition of what 
constitutes a credit hour?
    So I guess my question is, what is so unhelpful about 
having a minimum definition, and what about a minimum 
definition would preclude innovation, would preclude the kinds 
of new molds of educational delivery we are working towards? 
And what about a minimum definition would make it more 
difficult to measure outcomes, which we all agree is where we 
want to be?
    I had a lot of questions. I am sorry.
    Ms. Manning. Yes. Let me try at least to get at most of 
them.
    First of all, I want to just say that in my written 
testimony I said--I may not have made it clear in the oral 
testimony--that we do not believe having a definition will 
cause harm. I think that is the first thing.
    When I say it is deeply embedded, we all have lived with 
the credit hour for all of our working lives. We do find it 
very useful. It is so deeply embedded in so many different 
things that higher education does that it is actually hard to 
conceive how we would manage if we took it out.
    So there is no question that it is there and it is 
understood, and there is no harm in writing it down. There will 
be costs involved in demonstrating compliance, and I think that 
is something that is always a question with regard to 
regulation. And these are tight times, as you know, for 
everything, including higher education.
    Mr. Bishop of New York. May I interrupt you?
    Ms. Manning. Sure.
    Mr. Bishop of New York. Would the costs that are involved 
in demonstrating compliance--would they outstrip the cost that 
would be involved in demonstrating outcomes?
    Ms. Manning. I don't think they would. Not at all. I think 
that the--there is a serious cost to demonstrating outcomes, 
but our belief is that if you don't demonstrate outcomes you 
don't know what you are doing. That is, it is the Yogi Berra 
thing, right, if you don't know where you are going you will 
never know if you got there.
    So we require institutions to define objectives for every 
program. We don't second guess those objectives. We are not 
program accreditors. We accredit an entire institution.
    So the question is, would the messiness and complexity be 
helped by a definition? The definition gives you a way, gives 
you a metric. Every institution uses it.
    I was really referring to the fact, frankly, that if you go 
on most campuses--and perhaps the campus that you were on had 
this same thing--and you ask the scientists about the credits 
in the humanities they will tell you they are soft because 
there is no math. And exactly how you distinguish between three 
credits of chemistry, or how you compare three credits in 
chemistry and three credits in English is frankly beyond me.
    So that is the kind of thing that I meant by messy. You are 
accrediting a, you know, medical school, you are accrediting 
fine arts majors--it is a whole wide area.
    But again, let me repeat: I do not think the definition of 
a credit hour will do harm. I just feel that if our primary 
shared goal is a quality of what is being delivered to students 
in this country then the credit hour--it won't impede it, but 
it won't contribute to quality.
    Let me add one more thing about why we get so nervous about 
these kinds of definitions. If you think about 15, 20 years 
ago, if we had had--at that time if there had been a definition 
it would not, as the proposed regulations that were published 
yesterday do, take into account the idea of you making 
equivalencies based on learning objectives and student 
outcomes; it would have simply been the Carnegie Hour--3 hours 
in the class is three units plus 6 hours of homework.
    And you know, I don't know how, under those circumstances, 
we would have developed online learning and taken advantage of 
the immense opportunity the Internet offers. And I think, 
frankly, one of our problems right now, though it is not our 
major problem, is that people tend to conflate online learning 
with for-profit delivery. Eighty percent of the institutions in 
this country do a significant amount of online learning; it 
presents enormous opportunities to people who are place-bound, 
people who have full-time jobs, and so forth.
    And so that is an example, if you do a what if 
historically, that says to you, ``Does having tight minimum 
standards always work for the greater good?'' It wouldn't have. 
The regulations that have been proposed have more flexibility, 
and we recognize that.
    Mr. Bishop of New York. Okay.
    Thank you.
    Chairman Miller. Mr. Polis?
    Mr. Polis. Thank you, Mr. Chair.
    Dr. McComis, thank you for sharing with us the policies and 
practices of the Accrediting Commission of Career Schools and 
Colleges. In your testimony you expressed concern about federal 
regulations potentially exacerbating the difficulty that 
students attending our schools--your schools--already have in 
the area of transfer of credit. I found this to already be a 
big problem for many students in my state who thought they 
could transfer to a public or nonprofit college or university 
after attending a for-profit school but then later found out 
that the credits that they had earned were not recognized or 
accepted.
    On your Web site of your organization you describe how the 
need for greater portability of educational credits has reached 
a critical point and that your efforts continue to increase the 
options that are made available to students and graduates, from 
your institutions who are interested in continuing their 
education. So really, it seems to me that defining a credit 
hour and establishing procedures for accrediting agencies to 
determine whether an institution's assignment of credit hours 
is acceptable would help expand credit portability. What are 
your thoughts on that?
    Mr. McComis. Well, as I indicated earlier, I think that 
once you have the definition there it becomes the definition, 
and we don't currently use the Carnegie method; we use the 
clock hour to credit hour conversion method. And so it does not 
take into account outside preparation.
    So once the federal government defines what a credit hour 
is as the Carnegie Unit, if you are not using that that is 
another opportunity and excuse for an institution to say, 
``Your credits are not transferrable,'' even though the content 
is--can be completely comparable, maybe even more rigorous. 
There is just that opportunity for that to occur.
    So, as Ms. Manning has indicated, we don't object to, 
necessarily, a regulation, but that a great flexibility within 
that regulation that maybe provides criteria for what a credit 
hour is as opposed to 1 hour and 2 hours, as the Carnegie Unit 
puts forth--or maybe some other option that would allow for 
comparable credit hour conversions.
    Mr. Polis. You know, there is a recent article in the 
Chronicle of the Higher Education, May 27th, and the president 
of the Career College Association, which represents most of the 
schools that you accredit, was quoted saying that the inspector 
general's report was ``silly.'' I would like to solicit your 
opinion with regard to whether you agree with that 
characterization of the report that our committee is holding a 
hearing on today.
    Mr. McComis. Well, I don't agree with that 
characterization. I think that all the work that the I.G. has 
done in this area has been extremely important, and our agency 
has benefited from it as well. We underwent an I.G. 
investigation in 2002 relative to program length; they made 
some excellent recommendations and we followed up on many of 
them, and I think strengthened our process.
    Mr. Polis. Do you find it troublesome that the president of 
the association representing most of the schools you accredit 
would consider this report, which you believe is a serious 
component contributing to quality--do you find that troublesome 
that the president found that to be silly?
    Mr. McComis. I don't know the context within which that 
statement was made, so I really couldn't comment as to it.
    Mr. Polis. You say you also want the department to refrain 
from overly-prescriptive requirements so they don't stifle 
flexibility and innovation, and I think we all share that same 
concern. But I also think we agree that protecting the 
integrity of federal financial aid programs from inflated 
credit hours, improper designation of full-time student status, 
et cetera, are also of paramount importance not only to 
taxpayers but to the kids themselves. How do you recommend that 
the proposed rules can balance those two goals?
    Mr. McComis. So, I think one of the things that the I.G.'s 
report did was certainly to bring to light that there may be 
some competence issues with the way in which accreditation 
might evaluate program length and credit hour definitions. I 
think, largely, that accreditors do that very well, and the one 
case that has been cited, I think, may not be representative 
across the board.
    So, you know, looking at opportunities, again, multilayered 
reliance upon accreditation to work with their institutions to 
define the best opportunities for their students is really 
important--again, not against a regulation, but looking for 
that regulation to be stated in such a way that provides for 
potentially even the unknowns in program design and development 
as they will occur over the coming years, as Ms. Manning has 
already testified.
    Mr. Polis. Well, thank you.
    And I yield back.
    Chairman Miller. Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman, and I appreciate 
the hearing. I think it has probably been very educational for 
all of us. But I think one of the things that we are looking 
at--not only looking at the credit, but I think that the larger 
amount is, how do we measure the quality of the education that 
we are looking at when the students graduate?
    So I guess that I will ask Mr. McComis on what improvements 
do you think should be made to the accreditation process for 
proposing that they are carrying over a reliable measure of 
institutional quality for the purpose of awarding of Title IV 
funding?
    And, Dr. Manning, you know, in your testimony several times 
you had mentioned that you do think that the department 
proposal rule on a credit hour will lead us to the higher 
quality which we all seek in higher education, so what I am 
looking for is what is the recommendation of how do we get to 
finding out how we get the higher quality of education and how 
do we find that with the students that are graduating?
    Mr. McComis. Yes, ma'am. I will go first.
    So, recently our agency has sought to work on that 
question, and we have developed a number of student learning 
assessment and outcome standards that we have put into place as 
of last year that really focus on a process of assessment, that 
really look to the institution being able to demonstrate--not 
necessarily through quantitative measures--but being able to 
demonstrate what is the process that they use to determine that 
a student has acquired the necessary skills and competencies 
and knowledge at a level that would provide the institution 
with an opportunity to award that student with a credential.
    How did that student, in the vocational and career-oriented 
areas--how did you make a determination that that student is 
competent to go out and be a nurse, or a truck driver, or a 
technician? What were the tools that you used? What were the 
rubrics that you used? What were the tests that you used? What 
determinations did you come to through that process?
    That, coupled with our graduation and employment rates, 
make for this--and also the use of external program advisory 
committees made up of the employment community--provide us with 
this multilayered approach, and those are the approaches that I 
think will lead us down to a path of greater confidence in the 
quality of those programs.
    Mrs. McCarthy. Just quickly, too, don't the states, 
especially with the courses that we are talking about, whether 
it is nursing, truck driving, they either get certified or they 
have to take a state license test? I mean, isn't that also a 
quantity of proof?
    Mr. McComis. Yes, ma'am, it could be. It is one of several 
indices that an institution could use to demonstrate student 
learning.
    Mrs. McCarthy. Dr. Manning?
    Ms. Manning. Thank you. I think that to get at the 
quality--and again, I want to make sure we have said this--we 
actually do use credit hours, but what we don't use is a strict 
definition, and part of this has to do with the fact that we 
believe people know what credit hours are, at least the 
evaluators that we use.
    But to get at what I believe is your question about how are 
we going to improve and how are we going to assure that we get 
higher quality, I think assessment is the key to it, and I 
think that the assessment is best carried on at the 
institutional level because it needs to be relative to what the 
institution is teaching. And remember that the institutions we 
accredit are often very complicated; they will often have a 
couple of hundred programs, not a program, and programs that 
are very different from each other.
    What we need to do--and we have been working on doing this 
for about 20 years--is to hold the institutions accountable for 
having assessment measures appropriate to each and every one of 
their programs based on program objectives. And then--and this 
is the part that is the next challenge--we have actually gotten 
institutions to be pretty good about assessment.
    There is something in the businesses called ``closing the 
loop,'' and that means when you assess and you discover that 
you are not getting the results you want what do you do about 
it and what changes do you make in how you teach, how you run 
your program, what your curriculum is, to improve those 
results?
    And we encourage the use of multiple indicators so that in 
professional fields, for example, when there are licensures 
exams, that is something that should be taken into account. 
When these are undergraduate programs and students are seeking 
to go on to graduate work the success rate should be taken into 
account.
    And so I think that pressure for more assessment and for 
more transparency about the outcomes of student learning is 
something that should be sustained.
    Mrs. McCarthy. Thank you.
    I yield back.
    Chairman Miller. Ms. Hirono?
    Ms. Hirono. This is pretty interesting. You know, I think 
that when we talk about accrediting I am looking for objective 
measures because how can you measure what the value of a 
liberal arts education is versus all those other professions, 
such as law, medicine, engineering, nursing, where licensure is 
one way that you can objectively determine whether or not the 
quality has been there. So at the least I would--I think it 
makes sense that we have some sort of minimal national 
objective definition.
    And I don't think, Ms. Manning, you are objecting to that. 
How we are going to get to the quality issues where--on things 
like English, literature, I don't know, and I kind of go with 
what you just described, that the institutions should be 
encouraged to develop those kinds of assessment tools.
    Let's face it, by the time we get to higher education I 
think that so many of our colleges and universities--the 
quality issue is one that is based on their reputation and any 
number of factors that are very difficult to measure. So based 
on what I am--I am sorry I was late for this hearing, but it 
seems to me that we are going in the right direction with what 
the inspector general is proposing.
    If anybody has any further comments?
    Ms. Manning. I could respond to that a bit with 
particularly your concern about how do you measure liberal arts 
education, for example, also because I am a liberal arts 
educator so it hits right home to what I do. And I just wanted 
to offer you something that might give you a little optimism 
about how we can be working on this.
    It is not coming out of the accrediting community. The 
leadership on this project is coming out of the American 
Association of Colleges and Universities where they have been 
working to create rubrics in which--under which it is possible 
to assess the outcomes not of English versus history, but the 
outcomes of a liberal arts education, and not just a liberal 
arts education, but liberal education for all students, because 
we believe that the outcomes, the goals of liberal education 
are important for engineers and doctors just as they are for 
people who go on to become English professors.
    And so that work is progressing and it is something that is 
being--the outcome, the results of that work are being adapted 
by more and more colleges and universities across the country. 
And so I think you will see a kind of more articulated 
consensus, and therefore a basis on which to benchmark what 
students learn even in the liberal learning part of their 
education.
    Ms. Hirono. Well, could you give me an example of what 
would be a measurable outcome for the value of a liberal arts 
education? I am not quite understanding----
    Ms. Manning. Oh, you look at the large questions about what 
is it--you know, why is it a good thing to major in English, or 
major in history, or in philosophy? And what we say is, it is 
not because the country needs a whole number of people who have 
read Shakespeare; it needs a number of people who can think 
critically, who can read at a high level, who can solve 
problems, who can work together in teams, who can have a global 
perspective, which is something we need in our----
    Chairman Miller. Keep going. I love this definition of a 
liberal arts graduate.
    Ms. Manning. No, I am going to stop. [Laughter.]
    Chairman Miller. Makes me feel so good.
    Excuse me, Ms. Hirono.
    Ms. Hirono. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. McComis. I would just add, if I could, I think your 
question actually goes to the issue of the difference amongst 
accreditors and the difference amongst the institutions that 
they accredit and the importance of those agencies being able 
to work with their institutions. My agency doesn't deal with 
liberal arts; we are very career-oriented, so it is--we can 
have different kinds of standards because of that, and we do.
    And so I wouldn't suggest that every institution would be 
able to meet our standards that offer those liberal arts 
educations. I think that would be very difficult for some of 
them to do. So again, just an important distinction about the 
importance of accreditors being able to work with their 
institution to define those outcomes.
    Ms. Hirono. I agree, because some institutions, as you say, 
you know, graduates of your institutions, there are 
measurable--objectively measurable--standards that you can 
apply. Not so much in the liberal arts side, although I am glad 
to know that there are developing measures there, too. But I 
think that that should be--I tend to go with what Ms. Manning 
is saying, that it is the institutions that should develop 
those and not some federal requirement or standard.
    Thank you.
    Chairman Miller. Thank you.
    We are almost done here. Earlier, in my opening questions, 
I raised the question, what is the impact of an invested 
business plan and the needs of some for-profit institutions. 
And in reading from the alert memorandum, when the discussion 
was that the difference between AIU's credit policy at that 
time--not today, at that time--and the common practice of 
higher education, the difference was--where they stated it was 
egregious. I go on to read to say that it essentially permits 
an undergraduate degree completion student to get a bachelor's 
degree or an associate degree plus 1 year of full-time 
equivalent study, not 2. This calls into question the integrity 
of AIU degree and must therefore rectify quickly if AIU is to 
retain an accredited status.
    And reading from the memorandum in the next paragraph, 
``The implication of this analysis is far-reaching for AIU, 
affecting degree requirements, faculty requirements, and 
financial aid policies. The current policy of awarding a 
bachelor's degree for an associate plus 10 nine-credit courses 
seems actually the equivalent of an associate plus 30 semester 
hours, so the current degree is the equivalent of an associate 
plus 1year of full-time study, not 2. The team viewed this as a 
matter affecting the integrity of AIU. If the credits were to 
be properly calibrated, students who evaluate AIU's value 
proposition in terms of cost of degree, time to degree, may see 
that the cost and time double. If AIU cannot raise the cost of 
degree without losing too many students and if 90 quarter units 
requires 20 courses, not 10, then the number of faculty needed 
to serve the existing level of student enrollment would double, 
increasing the instructional cost above the current 12 percent 
of revenues.''
    Next paragraph: ``Unless students are willing to pay more 
for their degrees the net effect would be to raise the 
percentage of revenue spent on instruction toward a figure that 
is more typical of the online universities represented on this 
team.''
    Next paragraph: ``The recalibration of credit awards might 
also affect the meaning of a full-time student eligibility for 
federal student loan aid. AIU has been requiring all upper-
division students to be full-time, meaning that they take nine 
credit units per 5-week session. This policy may need to be 
reconsidered, permitting students to study part-time.''
    And then it says, ``The team provided further support of 
detail support of its finding.'' This paragraph starts, ``The 
current practice of AIU students to take nine credit courses 
every 5 weeks thus, in a 15-week period comparable to a 
semester in other universities, the AIU student would take 27 
credits, comparable to 18 semester hours or six three-semester 
hour courses.''
    This would be an overload for a full-time student at a 
university on the semester system, given that the typical AIU 
student is also working full-time and may be--and have family 
obligations, or want to ``have a life,'' in addition to their 
studies. It is doubtful that the AIU student could hold down 
the equivalent of six semester courses on top of this.
    The footnote that refers back to the question of unless 
students are willing to pay more for their degrees the net 
effect would be to raise the percentage of revenue spent on 
instruction more typical of the online universities 
represented--I assume that means the members of the team, that 
some of them were from online universities.
    The footnote says, ``The team found that according to CEC's 
2007 financial statements that the profit of the Career College 
Corporation attributed to AIU was in excess of $40 million. The 
team stated that AIU's expenditures on instruction, as a 
percentage of revenue, is low by comparison to other 
proprietary institutions familiar with--familiar to the team 
and that it is likely to be related to the issue of credit 
equivalency.''
    There you see how this is woven in and out, how these 
determinations are made. I don't pretend to know the answer to 
this, but I don't think that we can ignore that this is an 
overlay on what--as much as we talk about the Carnegie Hours 
changing, and looking at outcomes and equivalencies, as even 
the department has just done with this proposed rule, what has 
also changed is that now institutions have requirements to 
shareholders, to profit margins, to the stock market, and to 
others. And I think you heard from the range of questions here 
that this is a matter of serious concern.
    We have votes--I wanted to get back to Mr. McComis on how 
they sort of accredited, and I recognize the different 
institutions--you do not do liberal arts, but you do have 
certain minimums, and I was sort of interested in whether 
that--but I am not going to ask you to answer whether you sense 
that that is a race to the bottom, as perhaps was suggested if 
you did it across the board, that that might be the case.
    But I am also concerned about the discussion that went back 
and forth between Ms. Manning and the inspector general. And I 
think it is a very legitimate discussion, this question of if 
you are not going to have input requirements--seat hours, I 
guess that is what that was--and minimums, and we are 
transitioning to outcomes as another measurement but we don't 
have any minimums in outcomes. How is Congress to know whether 
or not we, as stewards of the taxpayers' money, are in fact 
purchasing value for people who are hungry for the education, 
the knowledge, the skills that it brings to them?
    But I think maybe--I don't know know whether we will do 
that in the hearing or whether we will do that in the committee 
briefing where we might ask you to come back, and some others 
from the community, to have that discussion, because I think it 
is important because we see even again, from the proposed rule, 
that a transition is taking place here, but we have this huge 
overlay of this $100 billion that is out there on the street.
    I want to thank you very, very much for your time. I didn't 
want this to go into a back and forth about this. I think that 
this particular case raises a whole series of issues that we 
have had a very difficult time trying to even articulate in the 
congressional setting.
    I don't think any of you were set out to do that, but I 
think that is how I view both the work of the accrediting 
agency, of the I.G., of the institution's response, and I just 
want to thank you for your participation and your expertise. 
And we will be following up with you again, if you don't mind.
    Thank you very much.
    And with that, the committee will stand adjourned and Ms. 
Hirono and I will see if we can beat--well, we only have to 
beat 100 of our colleagues to the floor.
    Thank you very much.
    [Whereupon, at 11:49 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
